<html>
<title> - SECURING OUR BORDERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     SECURING OUR BORDERS--OPERATIONAL CONTROL AND THE PATH FORWARD

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND

                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2011

                               __________

                            Serial No. 112-4

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
72-215                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Jane Harman, California
Michael T. McCaul, Texas             Sheila Jackson Lee, Texas
Gus M. Bilirakis, Florida            Henry Cuellar, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan          Laura Richardson, California
Tim Walberg, Michigan                Donna M. Christensen, U.S. Virgin 
Chip Cravaack, Minnesota                 Islands
Joe Walsh, Illinois                  Danny K. Davis, Illinois
Patrick Meehan, Pennsylvania         Brian Higgins, New York
Ben Quayle, Arizona                  Jackie Speier, California
Scott Rigell, Virginia               Cedric L. Richmond, Louisiana
Billy Long, Missouri                 Hansen Clarke, Michigan
Jeff Duncan, South Carolina          William R. Keating, Massachusetts
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Donna M. Christensen, U.S. Virgin 
Ben Quayle, Arizona, Vice Chair          Islands
Scott Rigell, Virginia               Brian Higgins, New York
Jeff Duncan, South Carolina          Hansen Clarke, Michigan
Peter T. King, New York (Ex          Bennie G. Thompson, Mississippi 
    Officio)                             (Ex Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5

                               Witnesses

Mr. Michael J. Fisher, Chief of the Border Patrol, U.S. Customs 
  and Border Protection, Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. Richard M. Stana, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Raul G. Salinas, Mayor, City of Laredo, Texas:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21


     SECURING OUR BORDERS--OPERATIONAL CONTROL AND THE PATH FORWARD

                              ----------                              


                       Tuesday, February 15, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Rogers, Quayle, Duncan, 
Thompson, Cuellar, Sanchez, Christensen, Higgins, and Clarke of 
Michigan.
    Also present: Representative Jackson Lee.
    Mrs. Miller [presiding]. The Committee on Homeland 
Security, the Subcommittee on Border and Maritime Security will 
come to order. The subcommittee is meeting today to hear 
testimony from the chief of the Border Patrol, Michael Fisher, 
Richard Stana--is from the Government Accountability Office, 
and from Laredo, Texas, Mr. Mayor Raul Salinas, to examine the 
metrics that the Border Patrol uses to determine operational 
control of the border. I will now recognize myself for an 
opening statement.
    First of all, I certainly want to welcome all of our 
witnesses, every one of you. I had a chance to meet you all 
before the hearing. I have had a chance to talk to the chief 
several times. I appreciate, certainly, all of your service and 
particularly the chief with the Customs and Border Protection, 
U.S. Border Patrol.
    Your men and women on the front line working 24/7 
tirelessly. We--on behalf of the entire Congress, I am sure 
share my true--truly, on the front line working so much to 
secure our Nation's borders. So we appreciate this.
    This hearing provides the opportunity to examine the 
concept of operational control of the border. Operational 
control has sort of become a buzz word of choice when 
describing how much or how little of the border the Border 
Patrol can effectively control. The American people rightly 
expect and demand that we achieve operational control of the 
border, that the preamble of the United States, of course, says 
that the first and foremost responsibility of the Federal 
Government is to provide for the common defense.
    I don't think we can provide for the common defense if we 
cannot protect the sovereignty of our Nation by securing our 
borders. According to the Border Patrol, 1,107 miles are 
currently under effective operational control.
    Today I want to explore the metrics that the Border Patrol 
utilizes when they announce that these miles are under 
operational control because, interestingly, in the budget 
justification documents, apparently there is not a plan to gain 
any additional miles for the rest of fiscal year 2011 or fiscal 
year 2012. I am sure there will be some questions raised about 
those documents.
    The U.S. Border Patrol's most recent National Strategy, 
which was released in 2004, is predicated on this concept of 
operational control. In fact, their strategy declares that all 
of our efforts must be and are focused on this goal.
    Last week in this hearing room, Homeland Security Secretary 
Janet Napolitano said, ``It is important to recognize that 
operational control is a very narrow term of art in border 
patrol lingo. It does not take into account infrastructure. It 
does not take into account technology, which is a force 
multiplier.''
    As well, she said that, ``Operational control should not be 
construed as a kind of overall assessment of what is happening 
on the border.'' If that is true, I would ask: Should we even 
be using this to look at the effectiveness of our efforts to 
control the border? How can we reassure the American people 
that their Federal Government is, in fact, accomplishing one of 
our principle missions?
    We must secure our borders. We must gain and maintain 
control of the border. We cannot continue to cede U.S. 
sovereign territory to drug cartels, to human traffickers, to 
smugglers and potential terrorists. Nor can we allow hundreds 
of thousands of people to break our laws and cross the border 
each and every year with impunity for any reason. We are either 
a Nation of laws, or we are not.
    We all understand the challenges that our Nation faces 
along our Southern border, but sometimes I feel that what is 
happening on the Northern border does not get the attention 
that it deserves. I am looking very much forward to working 
with my Ranking Member, Mr. Cuellar, who is an expert on the 
Southern border. I, of course, coming from Michigan, have the 
Northern border of interest and my principle advocacy.
    It was interesting last--I guess, a couple of weeks ago 
now, actually, the GAO released their report, which said that 
we only had 69 miles of the Northern border, which is less than 
2 percent out of the 4,000 total miles, under operational 
control. Of course, we have spent about $3 billion on security 
along the Northern border. So I will be asking our witnesses 
today what they think about all of that.
    The situation on the Southern border is not significantly 
better, according to the operational control miles. Currently, 
873 miles under operational control out of almost 2,000 miles. 
Of course, we hear stories almost every day about the rancher 
who was gunned down, the husband being killed on the lake that 
straddled the border, a seasoned Border Patrol agent being 
ambushed, missionaries being targeted merely because they drove 
a newer type of truck, model of truck.
    So, Secretary Napolitano might say that the border is not 
out of control. I think some might beg to differ. This 
committee will be looking into all of those kinds of things.
    Actually, up until last year, the Department of Interior 
had some signage up in Arizona. We had had some photos of it 
before. I don't think we have them here now today. But the 
signs read, ``Danger, Public Warning. Travel not recommended. 
Active drug and human smuggling area. Visitors may encounter 
armed criminals and smuggling vehicles traveling at high rates 
of speed. If you see suspicious activity, do not confront. Move 
away, and call 9-1-1.''
    This is in America. This is happening in America. It does 
not seem that that would be operational control of a border. It 
seems like we are ceding our sovereign territory to criminals.
    So as well, I would argue that the American people do not 
believe that allowing hundreds of thousands each year to enter 
our Nation illegally is consistent with having operational 
control. As the Border Patrol rightly points out, it will take 
a combination of things: Technology, personnel, infrastructure 
to secure the border. There is no one-size-fits-all. We will be 
exploring all of those and what our proper priorities should 
be, on the committee as well.
    So again, I look very much forward to hearing the 
witnesses' testimony. At this time, the Chairwoman now 
recognizes the Ranking Minority Member of the subcommittee, the 
gentleman from Texas, Mr. Cuellar, for his opening statement.
    Mr. Cuellar. Thank you very much, Madam Chairwoman. First 
of all, I want to begin by congratulating you on the 
Chairmanship of the Subcommittee on Border and Maritime 
Security. I enjoyed serving with you on this subcommittee in 
the 111th Congress. I look forward to working with you in this 
Congress. So again, congratulations.
    I know we have several areas of common interest, given that 
we represent border districts, one in the Northern side that 
you represent and one on the Southern part that I represent. I 
think together we can work together to address the security of 
the United States.
    I look forward to working with you to ensure that the 
Department of Homeland Security has the tools needed to secure 
our borders while it also ensures the free flow of legitimate 
trade and travel, which is the lifebloods of so many border 
communities like yours and mine.
    I would also like to welcome all the new Members to our 
subcommittee, both Democrats and Republicans. On the Democrat 
side, we are fortunate to have two Northern border members, 
Representative Higgins and Representative Clarke also and also 
representing the coastal area, Representative Christensen also. 
So that way we can cover the North, the Southern, of course, 
the coastal area also.
    Given the knowledge of many of the issues before the 
subcommittee, I know that they will contribute a great deal to 
our work in the weeks and months. I certainly want to welcome 
our new Members to this committee.
    Today we are here to receive testimony of the DHS use of 
personnel, technology, infrastructure to gain operational 
control of the Nation's border. One of the things that, 
certainly, we want to look at is that the United States has 
long attempted to obtain control of its border with varying 
degrees of success. One of the challenges surrounding the issue 
of operational control of the borders is defining the term 
itself, like you and I were referring to a few minutes ago.
    I am also hopeful that today's discussion will lead to a 
definite understanding of the term and our path forward 
regarding effective border policies and practices. DHS has 
increased its efforts in recent years to enhance border 
security. We both, as Democrats and Republicans in Congress, 
have provided the resources necessary to help to do that, for 
example, the $600 million, which is the largest infusion that 
we have ever put at border security that we did this last year.
    In my home town of Laredo, we have first-hand knowledge of 
the challenges along the Southern border and, of course, the 
responsibility to provide tools to enhance the border security. 
I certainly want to hear from our mayor on that particular 
point.
    One thing I would also mention, Madam Chairwoman and to the 
Members of the committee, is to make sure that we understand 
the work that we have done and understand some of the facts. I 
am from the home town. My family lives there. I go home every 
weekend. Certainly, I want to make sure people don't think it 
is a lawless society down there, which it is not.
    In fact, if you look at since 1990, crime in the Nation's 
24 border communities has dropped a dramatic 30 percent. You 
look--and I am sure Chief Fisher will talk about even the 
number of people coming across has gone down also for different 
reasons. So I want to make sure that when we talk about some of 
the issues--the missionary, the person that got killed on 
Falcon Lake, that we are talking about things--that doesn't it 
make right--but things that happened on the other side of the 
river.
    Certainly, I have always been one of those strong 
supporters of--program to make sure that whether it is ICE 
agents or other Federal law enforcement, that we go into Mexico 
to deflect the drug cartels there instead of just playing 
defense on our side, which we need to secure our border. But we 
have to understand the big picture. It is a multi-dimensional, 
which is, again, the bad guys are on the other side. So we 
certainly have to disrupt also.
    So I look forward to making sure that we look at border 
security, but at the same time, making sure that we keep in 
mind on the Southern border that when you look at the number of 
goods and personnel that come into the United States, where a 
lot of times we put the focus on the airports and seaports. But 
about 88 percent of all the goods and merchandise that come 
into the United States come through land ports.
    So whether it is the Northern ports or the Southern ports, 
we have got to make sure we find that balance between security 
and the legitimate trade and tourism, which is so important to 
the United States. So achieving this operational control of 
these areas, especially between the ports of entry, will be 
meaningless unless we provide adequate resources to the ports 
to enhance security and facilitate trade.
    So, Madam Chairwoman, I look forward to working with you 
with our Ranking Member that led us and, of course, with a new 
Chairman, Chairman King. I want to thank you and the committee.
    I certainly want to thank our witnesses, the mayor from my 
home town, Laredo, who is a former FBI agent and also a former 
Capitol police also here and has that type of experience.
    So with that, I yield back. Thank you, Madam Chairwoman.
    Mrs. Miller. Thank you very much. I appreciate you 
mentioning the new Members that you have. Mr. Clarke, of 
course, I have known for years from the Detroit area.
    Let me also introduce--and I should have done that at the 
beginning. Our two Members here that are freshman Members of 
the House and have come to our subcommittee. We certainly 
appreciate their passion for the border issues and we're 
looking forward to working with: Ben Quayle from Arizona and 
Jeff Duncan from South Carolina. So I appreciate that as well.
    At this time, the Chairwoman now recognizes the Ranking 
Member of the full committee, and that is the gentleman from 
Mississippi, Mr. Thompson, for any statement that he may have.
    Mr. Thompson. Thank you very much, Madam Chairwoman. I, 
too, welcome you on your maiden voyage as Chairwoman of this 
subcommittee.
    Today's hearing comes at an important juncture in the 
Department of Homeland Security's efforts to secure America's 
borders. Just last month, Secretary Janet Napolitano announced 
the cancellation of the SBInet program. After over 4 years and 
nearly a billion dollars spent, there is little to show for 
this program. Like its two predecessor programs, SBInet failed 
to live up to its promise.
    In this case, the third time was clearly not the charm. 
While I am pleased that Secretary Napolitano took this long-
overdue step, I want to know more about the Department's plan 
to deploy alternative border security technology along the 
border. I hope Chief Fisher can share some of the information 
with the subcommittee on that today.
    I would also like to hear from the other witnesses before 
us about what technologies they believe would help better 
secure our borders. Mr. Stana has a long history of evaluating 
the Department's efforts in this regard. Mr. Salinas offers a 
unique perspective with his law enforcement background, as 
already indicated, and as mayor of a key city along the U.S./
Mexican border.
    Proven, cost-effective technology is an essential 
complement to Border Patrol agents and infrastructure and is 
particularly valuable in areas where agents and infrastructures 
are sparse. DHS, border communities and American taxpayers 
cannot afford another failure.
    Beyond the issue of technology, I have long supported a 
comprehensive border security strategy as a means for achieving 
border security. Today the various agencies that play a role in 
border security each have their individual strategy and 
planning document. The Border Patrol has its own strategy, for 
example, but there is no single Government-wide or even DHS-
wide strategy setting forth how the agencies are going to work 
together to secure the borders.
    Given the number of agencies spread over different 
departments that play a role in this effort, such a strategy is 
essential to success. DHS should consider developing such a 
strategy in coordination with its Federal partners and in 
consultation with border community governments, law 
enforcement, and stakeholders.
    It is also important to note that being successful at 
achieving operational control of America's borders means more 
than just securing the areas between the ports of entry. 
America's ports of entry are vital to legitimate trade and 
travel, but are also used by individuals seeking to enter this 
country unlawfully or smuggle narcotics and contraband.
    Similarly, we must remember that our security challenges 
are not limited to the Southwest border. Our Northern and 
maritime borders are sometimes forgotten, perhaps because 
politics often trumps policy in these discussions.
    These borders may not have the same number of apprehensions 
or drug interdictions as the Southwest border, however, they 
are vast, often remote, comparatively unguarded areas that 
provide opportunities for illicit activities and potentially 
even terrorists to enter our country. We cannot have 
operational control of our borders without figuring out a way 
to secure these challenging areas.
    Likewise, as the 9/11 attacks and the attempted attack on 
Flight 253 on Christmas day, 2009 showed us, securing the 
process by which visitors travel to the United States is also 
essential to obtaining control of our borders. Meaningful 
border security will only be achieved when we know who and what 
is coming into this country, whether by land, sea, or air.
    I would like to also thank our witnesses for joining us 
today. I look forward to their testimony.
    I yield back, Madam Chairwoman.
    Mrs. Miller. Thank you.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record. As we have said, we 
are very pleased to have a distinguished panel of witnesses 
that are in attendance this morning on this very important 
topic. I will introduce all three, and then we will start with 
the chief.
    Chief Michael Fisher was named chief of the U.S. Border 
Patrol last year in May. Chief Fisher started his duty along 
the Southwest border in 1987 in Douglas, Arizona.
    He successfully completed the selection process for the 
Border Patrol tactical unit in 1990 and was later selected as a 
field operations supervisor for the tactical unit assigned to 
El Paso, Texas for 4 years. Following this, he served as a 
deputy chief patrol agent in the Detroit sector and as an 
assistant chief patrol agent in Tucson, Arizona.
    Richard Stana is the director of Homeland Security and 
Justice Issues at the Government Accountability Office. During 
his 27-year career with GAO, he has directed reviews on a wide 
variety of complex domestic and military issues while serving 
in the headquarters, in the field, and overseas offices as 
well. Most recently, he has directed GAO's work relating to 
immigration, customs, law enforcement, drug control, 
corrections, court administration and elections systems.
    Mayor Raul Salinas is the mayor of Laredo, Texas. Mayor 
Salinas was elected mayor in 2006. He is a retired FBI agent, 
having served the bureau for 27 years and most recently, 
serving as an assistant legal attache at the U.S. embassy in 
Mexico City. Mayor Salinas started his career in Washington, DC 
serving as a United States Capitol Police officer.
    So, again, we appreciate all of them coming. I will open 
the floor to Chief Fisher for his remarks.
    Chief.

  STATEMENT OF MICHAEL J. FISHER, CHIEF OF THE BORDER PATROL, 
  U.S. CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Chief Fisher. Chairwoman Miller, Ranking Member Cuellar, 
and distinguished Members of committee, it is a privilege and 
an honor to appear before you today to discuss U.S. Customs and 
Border Protection efforts to secure our borders, operational 
control, and our path forward. Over the past few years, the 
goal of our National strategy has been to gain, maintain, and 
expand operational control utilizing the right combination of 
personnel, technology, and infrastructure.
    Our tactical definition of operational control as a narrow 
term of art is the extent to which we are able to detect, 
identify, classify, respond to, and ultimately resolve all 
threats within the theater of operation. Operational control 
and the specific levels is the means by which we assess the 
requirements to achieve the goal.
    Operational control is not, in and of itself, an assessment 
of border security. Allow me to explain.
    The current levels of operational control, controlled, 
managed, monitored, and low-level monitored all start with the 
phrase, ``A zone may be considered controlled, for instance, 
when resources are at such a level that.'' Then the 
corresponding definition describes some key aspects that allow 
our field commanders to determine which level of control is 
appropriate for a specific zone.
    Now, because we have been in the gain mode over these last 
few years, we used these levels to assess how many agents, 
number, and type of technology and infrastructure was needed in 
each area of the border to achieve an acceptable level of 
operational control. Acceptable level of operational control is 
either at the controlled or managed definition.
    Twice a year we ask the chiefs in the field to report how 
they assess each zone within their areas of responsibility 
relative to the levels of activity and corresponding resources 
that were received. In essence, we ask the field leadership how 
they are deploying their resources and what they have 
accomplished as a result.
    As we have realized increases in agent staffing, protection 
technology, pedestrian fence, vehicle barricades, and border 
access through roads, we have seen decreases in illegal cross-
border activity along the Southwest border, in particular, and 
have incrementally reported higher levels of operational 
control. Operational control is not the absence of illegal 
activity. It simply indicates the condition along the border 
that informs our field leadership how and to what extent the 
resources that have been applied either reduce the threat of 
dangerous people and dangerous things entering our country and 
the extent to which these resources mitigate any potential 
vulnerability within their areas of responsibility.
    Our way forward and the new strategy that will be applied 
will be risk-based. We will depend on information and 
intelligence to tell us the intent and capability of the 
opposition while continuously assessing our border 
vulnerabilities. We will be more mobile, agile, and flexible 
than our adversaries. We will rely heavily on our Federal, 
State, local, Tribal, and international partners to ensure 
operational integration.
    Finally, we will define the doctrine through non-
traditional and unconventional approaches heretofore not 
explored. Now, I have witnessed the evolution of the border 
over the past 24 years, both in terms of increased resources 
applied against the threats as well as the change in the 
adversaries' tactics, techniques, and procedures. Our strategy 
will take this into consideration and provide a level of border 
security that the American people require and ultimately 
deserve.
    However, as the Secretary stated last year, ``We live in a 
world where we don't provide guarantees. We provide the ability 
to identify and minimize risk and to respond quickly should a 
risk materialize. But if something happens in the United 
States, we also have to have confidence as a people that we 
will be able to respond.''
    However, I will guarantee that I will spend every waking 
hour assessing our border security risks. I will continue to 
provide the requisite support to the brave men and women of CBP 
who selflessly stand on our borders to protect this Nation. I 
am honored to wear the uniform with them and will serve them 
and you with distinction and pride.
    I want to, again, thank you for the opportunity to testify 
today. I remain confident in our collective ability to secure 
our borders. I thank all of you for your support.
    The border is a dynamic environment, and we will continue 
to strive to meet the demands of today as well as the 
challenges of tomorrow. I look forward to answering your 
questions. Thank you.
    [The statement of Chief Fisher follows:]
                Prepared Statement of Michael J. Fisher
                           February 15, 2011
                              introduction
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the committee, it is a privilege and an honor to appear 
before you today to discuss U.S. Customs and Border Protection's (CBP) 
efforts to secure our Nation's borders. I am Michael J. Fisher, Chief 
of the United States Border Patrol.
    As America's frontline border agency, CBP's priority mission is to 
protect the American public, while facilitating lawful travel and 
trade. To do this, CBP has deployed a multi-layered, risk-based 
approach to enhance the security of our borders while facilitating the 
flow of lawful people and goods entering the United States. This 
layered approach to security reduces our reliance on any single point 
or program that could be compromised. It also extends our zone of 
security outward, ensuring that our physical border is not the first or 
last line of defense, but one of many.
                  overview of border security efforts
    Over the past 2 years, the Department of Homeland Security (DHS) 
has dedicated historic levels of personnel, technology, and resources 
to the Southwest border. We have more than doubled the size of the 
Border Patrol since 2004; quintupled the number of Border Liaison 
Officers working with their Mexican counterparts; doubled personnel 
assigned to Border Enforcement Security Task Forces; and began 
screening southbound rail and vehicle traffic for the illegal weapons 
and cash that are helping fuel the cartel violence in Mexico. CBP also 
received approval from the U.S. Department of Transportation's Federal 
Aviation Administration to increase the miles of airspace available for 
Unmanned Aircraft System (UAS) operations, enabling CBP to deploy UASs 
from the eastern tip of California extending east across the border 
into Texas--covering the entire Southwest border for the first time. 
Further, in January of this year, CBP's operational airspace along the 
Northern border expanded by nearly 900 miles, allowing CBP UAS 
operations from the Lake-of-the-Woods region in Minnesota, to the 
vicinity of Spokane, Washington.
    In addition, we have now constructed 649 miles of fencing out of 
nearly 652 miles where Border Patrol field commanders determined it was 
operationally required, including 299 miles of vehicle barriers and 350 
miles of pedestrian fence. We have also improved our technological 
capabilities, including by installing remote video surveillance cameras 
in the Detroit and Buffalo Sectors, among other technologies.
    Further, the Southwest border security supplemental legislation 
that based on the administration's recommendations and was signed into 
law in August 2010 provided DHS additional capabilities to secure the 
Southwest border at and between our ports of entry and reduce the 
illicit trafficking of people, drugs, currency, and weapons. 
Specifically, this bill provided funding for improved tactical 
communications systems along the Southwest border; two additional CBP 
unmanned aircraft systems; 1,000 new Border Patrol agents; 250 new CBP 
officers at ports of entry; and two new forward operating bases to 
improve coordination of border security activities.
    In addition, President Obama agreed to the temporary deployment of 
up to 1,200 National Guard troops to the Southwest border to contribute 
additional capabilities and capacity to assist law enforcement agencies 
as a bridge to longer-term enhancements in the efforts to target 
illicit networks' trafficking in people, drugs, illegal weapons, money, 
and the violence associated with these illegal activities. These 
National Guard troops are providing Entry Identification Teams and 
criminal investigation analysts in support of these efforts.
    Beyond these measures, in recent months we have taken additional 
steps to bring greater unity to our enforcement efforts, expand 
coordination with other agencies, and improve response times. In 
Arizona, CBP created a joint command to bring together Border Patrol, 
Air and Marine, and Field Operations under a unified command structure. 
We are improving coordination with supporting military forces on the 
Southwest border. In partnership with the Drug Enforcement 
Administration, and with support from the Department of Defense, we are 
standing up the new Border Intelligence Fusion Section in the El Paso 
Intelligence Center, which will develop and disseminates a 
comprehensive Southwest Border Common Intelligence picture, as well as 
real-time operational intelligence, to our law enforcement partners in 
the region--further streamlining and enhancing coordinated Federal, 
State, local, and Tribal operations along the border. Additionally, we 
are continuing to work with Mexico to develop an interoperable, cross-
border communications network that will improve our ability to 
coordinate law enforcement and public safety issues.
    In addition, the Border Patrol has increased partnerships with 
Federal, State, local, and Tribal law enforcement agencies, as well as 
with the public and private sectors. Coordination and cooperation among 
all entities that have a stake in our mission has been, and continues 
to be paramount. CBP is working closely with Federal, State, local, 
Tribal, and international partners to increase intelligence and 
information sharing. This information sharing increases understanding 
of evolving threats and provides the foundation for law enforcement 
entities to exercise targeted enforcement in the areas of greatest 
risk. As actionable intelligence indicates that there may be a shift in 
threat and smuggling activity from one geographic area to another, CBP 
will adapt and shift resources to mitigate the threat. This 
intelligence-driven approach prioritizes emerging threats, 
vulnerabilities, and risks--greatly enhancing our border security 
efforts.
    Along the Northern border, the Border Patrol has partnered with the 
Canadian law enforcement community as well as other Federal and State 
partners though Integrated Border Enforcement Teams (IBET). The mission 
of the IBETs is to enhance border security by identifying, 
investigating, and interdicting individuals and organizations that pose 
a threat to National security or are engaged in other organized 
criminal activity. In the maritime sphere, CBP, U.S. Immigration and 
Customs Enforcement (ICE), and the U.S. Coast Guard coordinate 
integrated operations to combat illegal maritime smuggling through the 
Caribbean Border Interagency Group (CBIG).
    An example of our collaborative efforts along the Southwest border 
is the Alliance to Combat Transnational Threats (ACTT) in Arizona. ACTT 
utilizes a collaborative enforcement approach that leverages the 
capabilities and resources of the Department of Homeland Security in 
partnership with more than 70 law enforcement agencies in Arizona and 
the Government of Mexico to deter, disrupt, and interdict individuals 
and criminal organizations that pose a threat to the United States. 
Through ACTT, we work with our Federal, State, local, and Tribal law 
enforcement partners to increase collaboration; enhance intelligence 
and information sharing; and develop coordinated operational plans that 
strategically leverage the unique missions, capabilities, and 
jurisdictions of each participating agency.
                                results
    Since 2004, CBP has used ``operational control'' to describe the 
security of our borders. However, this measure did not accurately 
represent the Border Patrol's significant investments in personnel, 
technology, and resources or the efforts of other DHS Components who 
are engaged in border security such as ICE and the U.S. Coast Guard. 
Operational Control as applied by the U.S. Border Patrol is the ability 
to detect, identify, classify, and then respond to and resolve illegal 
entries along our U.S. Borders. The term is tactical in nature and by 
current use can only be achieved by incrementally applying resources to 
a point where field commanders can consistently respond to and resolve 
illegal entries. Operational as a measure however does not accurately 
incorporate the efforts of CBP partners and the significance of 
information and intelligence in an increasingly joint and integrated 
operating environment. The Border Patrol is currently taking steps to 
replace this outdated measure with performance metrics that more 
accurately depict the state of border security.
    In fact, the application of these resources has allowed CBP to make 
significant strides in effectively managing our Nation's borders, and 
the numbers are indicative of the success of our efforts. The border is 
different today than it was 10 years ago. Border Patrol apprehensions 
of illegal aliens decreased from more than 1.6 million in fiscal year 
2000 to approximately 463,000 in fiscal year 2010--a more than 70 
percent reduction--indicating that fewer people are attempting to 
illegally cross the border. We have matched these decreases in 
apprehensions with increases in seizures of cash, drugs, and weapons 
over the past 2 years--seizing 35 percent more illegal currency, 16 
percent more illegal drugs, and 28 percent more weapons compared to the 
previous 2 years. There have been isolated incidents of violence near 
our Southwest border, however, violent crime as a whole, in border 
communities has remained flat or fallen in the past decade, and some of 
the safest communities in America are at the border. In fact, violent 
crimes in Southwest border counties have dropped by more than 30 
percent and are currently among the lowest in the Nation per capita, 
even as drug-related violence has significantly increased in Mexico.
    Nonetheless, we still face significant challenges. We remain 
concerned about the drug-cartel violence taking place in Mexico and 
continue to guard against spillover effects into the United States. 
Working with Congress and our partners across Federal, State, and local 
law enforcement, we will continue to assess the investments in the 
manpower, technology, and resources that have proven so effective over 
the past 2 years in order to keep our borders secure and the 
communities along it safe.
                          targeted enforcement
    We know from experience that targeted enforcement works. Over the 
past few years, we have developed effective strategies to disrupt and 
dismantle smuggling organizations and distribution networks, leading to 
a safer border. Operations and initiatives such as Operation 
Streamline; the Alien Transfer Exit Program (ATEP); the Mexico Interior 
Repatriation Program (MIRP); and Operation Against Smugglers Initiative 
on Safety and Security (OASISS) are focused on delivering targeted 
consequences to offenders and breaking the smuggling cycle. 
Collectively, they represent the Consequence Delivery System that aids 
the overarching effort to improve the safety and security of the 
border.
    Streamline is a consequence-based prosecution program designed to 
help CBP in its efforts by conducting focused criminal prosecutions of 
selected aliens within a defined geographic enforcement areas. ATEP is 
an on-going program which moves Mexican nationals apprehended in one 
Border Patrol Sector to another Sector before removing them to Mexico. 
ATEP breaks the smuggling cycle by physically separating aliens from 
the smuggling organizations that will repeatedly attempt to bring guide 
them into this country. ATEP was initiated in the San Diego, Yuma, and 
El Centro Sectors in February 2008 and has since expanded to the Tucson 
and El Paso Sectors. In fiscal year 2011, as of February 2, 18,257 
apprehensions have been transferred as part of ATEP, and only 3,558 
subjects have been encountered after illegally re-entering the United 
States--less than 24 percent. MIRP is a joint CBP and ICE initiative 
established in coordination with the Government of Mexico under which 
aliens apprehended in high-risk areas of the Sonora Desert are 
voluntarily repatriated to the interior of Mexico. OASISS is a bi-
national effort designed to coordinate prosecution of alien smugglers 
in the Mexican judicial system.
    Collective understanding of where the greatest risks lie along our 
borders is critical to our flexibility in addressing these risks. As 
CBP applies targeted enforcement to areas of evolving threat, mobile 
response capability is critical to timely and effective resolution. 
This mobile response capability must actively engage all CBP components 
and our partners in order to ensure proper synchronization and 
effectiveness.
                               conclusion
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the committee, thank you for this opportunity to testify 
about the work of U.S. Customs and Border Protection, and our efforts 
in securing our borders.
    The Obama administration has asserted that border security alone 
will not address the country's broken immigration system and is 
committed to reforming our immigration laws. In addition, we currently 
have immigration laws, and these laws can't be ignored. The law is the 
law--and our law enforcement officers and agents are bound by duty to 
enforce them. We must employ a common-sense approach to immigration 
enforcement. We should place our resources and allocate our time in 
those areas that give us the biggest return for our investment--money-
wise and resource-wise. Effective border management is critical to our 
Nation's security, and I appreciate the continued support of this 
committee and Congress.
    I look forward to answering your questions at this time.

    Mrs. Miller. Thank you very much, Chief. I appreciate 
that--your opening statement there.
    I turn now to Mr. Stana. We would recognize you to testify, 
sir.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Thank you, Chairwoman Miller and Ranking Member 
Cuellar, for the opportunity to testify at today's hearing. As 
you know, both the Southwest border and the Northern border 
continue to be vulnerable to cross-border activity, including 
the smuggling of humans and illegal contraband. The Border 
Patrol is the Federal agency with primary responsibility for 
securing our borders between our ports of entry.
    Last year, CBP spent about, well, I think, it is over $3 
billion to support the Border Patrol efforts on the Southwest 
border. I believe, about another $3 billion was spent on the 
Northern border to secure that border. For that year, the 
Border Patrol reported apprehending on the Southwest border 
over 445,000 illegal entries and seizing over 2.4 million 
pounds of marijuana.
    As Chief Fisher described his terminology for what 
operational control means and how he defines it, I don't think 
I need to repeat that. But there are other definitions for 
operational control in legislation and in other planning 
documents that call for the prevention of all illegal entries 
of people and contraband.
    My prepared statement is based on our preliminary 
observations from work we are doing for this committee 
regarding the process for measuring operational control of the 
border. I would just like to highlight three points from our 
prepared statement.
    First, for fiscal year 2010, last year, the Border Patrol 
reported achieving varying levels of operational control of 873 
miles of the border. That is 44 percent of the Southwest 
border, our border with Mexico. As shown in Figure 3 of my 
prepared statement, the nine Southwest border sectors reported 
achieving different levels of operational control ranging from 
11 percent of the miles in Marpa to 100 percent of the miles in 
Yuma. The uneven progress across the Southwest border is due to 
many factors, including differences in terrain, transportation 
infrastructure on both sides of the border, and resource and 
technology deployments in the different sectors.
    My second point is that the measure of miles under 
operational control does not mean that illegal entries are 
detected and interdicted at the immediate border. Of the 873 
miles reported under operational control, about 129 of them, or 
about 15 percent, were classified as controlled, which means 
the Border Patrol resources were available to either detect, 
deter, and apprehend illegal entries at the immediate border. 
The remaining 85 percent of the miles were considered as 
managed in that apprehension could take place some times a 
hundred miles or more away from the border or not at all.
    That is because the Border Patrol's definition of 
operational control does not require agents to apprehend each 
and every illegal entry. For example, although Yuma is 
classified as having 100 percent operational control, about 10 
percent of the entries are classified as got aways. These are 
people that were never apprehended. For the 1,120 miles not 
reported to be under operational control, the Border Patrol 
said it was likely to detect about--but not apprehend in about 
two-thirds of the miles and in one-third of those miles does 
not have the capability consistently to detect at all.
    My final point is that the new border security measures 
will not be in place for another year, the performance 
measures. In the mean time, they are using interim measures of 
performance that are reported on just this week. These interim 
measures, such as the number of apprehensions in the Southwest 
border between ports of entry, provide some useful information, 
but do not do as good a job as the previous measures in 
answering the fundamental accountability question, which is: 
How well did you do with the funds you were given?
    In closing, as CBP and the Border Patrol continue to refine 
new performance measures, it is important to be mindful of the 
key attributes of successful performance measurement. These 
attributes include linking measures to goals, missions, and 
core activities; assuring clarity and consistency in definition 
and measurement; employing numerical targets; being reasonably 
free of significant bias and manipulation; recognizing each 
component's contribution to the overall progress and producing 
reliable results.
    This concludes my oral statement. I would be pleased to 
answer any questions that subcommittee Members may have.
    [The statement of Mr. Stana follows:]
                 Prepared Statement of Richard M. Stana
                           February 15, 2011
                              gao-11-374t
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee:
    I am pleased to be here today to discuss issues regarding the 
Department of Homeland Security's (DHS) process for measuring security 
for the nearly 2,000-mile U.S. border with Mexico. DHS reports that the 
southwest border continues to be vulnerable to cross-border illegal 
activity, including the smuggling of humans and illegal narcotics. The 
Office of Border Patrol (Border Patrol), within DHS's U.S. Customs and 
Border Protection (CBP), is the Federal agency with primary 
responsibility for securing the border between the U.S. ports of 
entry.\1\ CBP has divided geographic responsibility for southwest 
border miles among nine Border Patrol sectors, as shown in figure 1. 
CBP reported spending about $3 billion to support Border Patrol's 
efforts on the southwest border in fiscal year 2010, and Border Patrol 
reported apprehending over 445,000 illegal entries and seizing over 2.4 
million pounds of marijuana.\2\
---------------------------------------------------------------------------
    \1\ Ports of entry are officially designated facilities that 
provide for the controlled entry into or departure from the United 
States.
    \2\ The $3 billion reflects fiscal year 2010 Border Patrol 
expenditures on southwest border security and CBP expenditures for 
high-priority investments in technology and tactical infrastructure 
along the southwest border. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    DHS is planning to change how it reports its status and progress in 
achieving border security between ports of entry to Congress and the 
public in its Fiscal Year 2010-2012 Annual Performance Report. In past 
years, DHS reported the number of border miles under effective 
control--also referred to as operational control--defined by DHS as the 
number of border miles where Border Patrol had the ability to detect, 
respond, and interdict cross-border illegal activity. DHS plans to 
improve the quality of border security measures by developing new 
measures that reflect a more quantitative methodology. DHS is also 
planning to change how it requests resources for border control in 
support of its effort to develop a new methodology and measures for 
border security.
    My statement is based on preliminary observations from our on-going 
work for the House Committee on Homeland Security. We plan to issue a 
final report on this work--which involves reviewing Border Patrol's 
process for measuring border control--later this year. As requested, my 
testimony will cover the following issues:

    (1) The extent to which DHS reported progress in achieving 
        operational control--Border Patrol was able to detect, respond, 
        and interdict cross-border illegal activity--of the southwest 
        border,

    (2) The extent to which operational control reflects Border 
        Patrol's ability to respond to illegal activity at the border 
        or after entry into the United States, and

    (3) How DHS reports that the transition to new border security 
        measures will change oversight and resource requirements for 
        securing the southwest border.

    To conduct our work, we interviewed officials at DHS headquarters 
in January and February 2011 and conducted preliminary analysis of DHS 
documentation relevant to border security assessments and resource 
requirements across the southwest border for fiscal years 2009 and 
2010. We conducted preliminary analysis of data supporting the border 
security measures reported by DHS in its annual performance reports for 
fiscal years 2005 through 2009. For fiscal years 2009 and 2010 data, we 
interviewed Border Patrol headquarters officials regarding the 
processes used to develop each sector's Operational Requirements-Based 
Budget Process (ORBBP) documents that include these data.\3\ We also 
interviewed DHS, CBP, and Border Patrol officials responsible for 
overseeing quality control procedures for these data. We determined 
that these data were sufficiently reliable for the purpose of 
preliminary observations.
---------------------------------------------------------------------------
    \3\ Border Patrol officials provided us with fiscal year 2010 data, 
but said they could not provide us with the sector ORBBP documents that 
include these data as they had not yet been finalized. The ORBBP is 
Border Patrol's standardized National planning process that links 
sector- and station-level planning, operations, and budgets. This 
process documents how sectors identify and justify their requests to 
achieve effective control of the border in their area of 
responsibility, and enables Border Patrol to determine how the 
deployment of resources, such as technology, infrastructure, and 
personnel, can be used to secure the border.
---------------------------------------------------------------------------
    Past work that informed our current work included a review of 
guidance headquarters provided to sectors for development of the ORBBP 
documents, and interview with Border Patrol officials in the field who 
were responsible for preparing select ORBBP documents and headquarters 
officials responsible for reviewing these documents.\4\ Additional work 
included site visits in January 2010 to Border Patrol's Tucson sector 
in Arizona, where we discussed ORBBP data entry procedures and 
oversight of performance indicators at the station and sector 
levels.\5\ While we cannot generalize the results of these site visits 
to all locations along the southwest border, the site visits provided 
insights to the issues faced by Border Patrol in assessing and 
reporting the status of border control across Federal, Tribal, and 
private lands in urban and rural environments.
---------------------------------------------------------------------------
    \4\ GAO, Border Security: Enhanced DHS Oversight and Assessment of 
Interagency Coordination Is Needed for the Northern Border, GAO-11-97 
(Washington, DC: Dec. 17, 2010).
    \5\ GAO, Border Security: Additional Actions Needed to Better 
Ensure a Coordinated Federal Response to Illegal Activity on Federal 
Lands, GAO-11-177 (Washington, DC: Nov. 18, 2010). The Tucson sector 
has experienced the highest volume of illegal cross-border activity, as 
indicated by marijuana seizures and illegal alien apprehensions, among 
southwest border sectors.
---------------------------------------------------------------------------
    Additional past work informing our on-going work included an 
analysis of Border Patrol's 2007 through 2010 ORBBP documents, which 
included assessments of the border security threat, operational 
assessment of border security, and resource requirements needed to 
further secure border miles within sectors. We reviewed these documents 
to determine the number of border miles that Border Patrol reported 
were under effective control and the number of miles reported as 
needing outside law enforcement support. We also interviewed Border 
Patrol officials in the field who were responsible for preparing the 
ORBBP documents.
    We are conducting our on-going work in accordance with generally 
accepted Government auditing standards. Those standards require that we 
plan and perform the audit to obtain sufficient, appropriate evidence 
to provide a reasonable basis for our findings and conclusions based on 
our audit objectives. We believe that the evidence obtained provides a 
reasonable basis for our findings and conclusions based on our audit 
objectives.
border patrol reported achieving varying levels of operational control 
               for nearly half of southwest border miles
    Border Patrol reported achieving varying levels of operational 
control of 873 (44 percent) of the nearly 2,000 southwest border miles 
at the end of fiscal year 2010. The number of reported miles under 
operational control increased an average of 126 miles per year from 
fiscal years 2005 through 2010 (see fig. 2). Border Patrol sector 
officials assessed the miles under operational control using factors 
such as operational statistics, third-party indicators, intelligence 
and operational reports, resource deployments, and discussions with 
senior Border Patrol agents.\6\ Border Patrol officials attributed the 
increase in operational control to deployment of additional 
infrastructure, technology, and personnel along the border.\7\ For 
example, from fiscal years 2005 through 2010, the number of border 
miles that had fences increased from about 120 to 649 and the number of 
Border Patrol agents increased from nearly 10,000 to more than 17,500 
along the southwest border.
---------------------------------------------------------------------------
    \6\ Operational statistics generally include the number of 
apprehensions and known illegal border entries and volume and shift of 
smuggling activity, among other performance indicators. Border Patrol 
officials at sectors and headquarters convene to discuss and determine 
the number of border miles under operational control for each sector 
based on relative risk.
    \7\ Infrastructure includes fencing and roads, among other things. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Across the southwest border, Yuma sector reported achieving 
operational control for all of its border miles. In contrast, the other 
southwest border sectors reported achieving operational control ranging 
from 11 to 86 percent of their border miles (see fig. 3). Border Patrol 
officials attributed the uneven progress across sectors to multiple 
factors, including terrain, transportation infrastructure on both sides 
of the border, and a need to prioritize resource deployment to sectors 
deemed to have greater risk of illegal activity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Border Patrol reported that the sectors had made progress toward 
gaining control of some of the 1,120 southwest border miles that were 
not yet under operational control. Border Patrol reported an increased 
ability to detect, respond, or interdict illegal activity for more than 
10 percent of these southwest border miles from fiscal year 2009 to 
September 30, 2010.
  operational control most often reflects border patrol's ability to 
     respond to illegal activity after entry into the united states
    Border Patrol reported that operational control for most border 
miles reflected its ability to respond to illegal activity after entry 
into the United States and not at the immediate border. Border Patrol 
classified border miles under operational control as those in which it 
has the ability to detect, respond, and interdict illegal activity at 
the border or after entry into the United States. Operational control 
encompassed two of the five levels used by Border Patrol agents to 
classify the security level of each border mile (see table 1). The two 
levels of operational control differed in the extent that Border Patrol 
resources were available to either deter or detect and apprehend 
illegal entries at the immediate border (controlled) versus a multi-
tiered deployment of Border Patrol resources to deter, detect, and 
apprehend illegal entries after entry into the United States; sometimes 
100 miles or more away (managed). These differences stem from Border 
Patrol's ``defense in depth'' approach to border security operations 
that provides for layers of agents who operate not only at the border, 
but also in other areas of the sector.

            TABLE 1: BORDER PATROL LEVELS OF BORDER SECURITY
------------------------------------------------------------------------
       Levels of Border Security                    Definition
------------------------------------------------------------------------
Controlled.............................  Continuous detection and
                                          interdiction resources at the
                                          immediate border with high
                                          probability of apprehension
                                          upon entry.
Managed................................  Multi-tiered detection and
                                          interdiction resources are in
                                          place to fully implement the
                                          border control strategy with
                                          high probability of
                                          apprehension after entry.
Monitored..............................  Substantial detection resources
                                          in place, but accessibility
                                          and resources continue to
                                          affect ability to respond.
Low-level monitored....................  Some knowledge is available to
                                          develop a rudimentary border
                                          control strategy, but the area
                                          remains vulnerable because of
                                          inaccessibility or limited
                                          resource availability.
Remote/low activity....................  Information is lacking to
                                          develop a meaningful border
                                          control strategy because of
                                          inaccessibility or lack of
                                          resources.
------------------------------------------------------------------------
Source: GAO analysis of U.S. Border Patrol ORBBP documents.

    Our analysis of the 873 border miles under operational control 
reported by Border Patrol in fiscal year 2010 showed that about 129 
miles, or 15 percent, were classified as ``controlled,'' which is the 
highest sustainable level for both detection and interdiction at the 
immediate border (see fig. 4). The remaining 85 percent of miles were 
classified as ``managed,'' in that interdictions may be achieved after 
illegal entry by multitiered enforcement operations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Border Patrol's definition of operational control considers the 
extent to which its agents can detect and apprehend illegal entries, 
but does not require agents to have the ability to detect and apprehend 
all illegal entries, according to officials in Border Patrol's 
Strategic Planning and Policy Analysis Division. Yuma sector, for 
example, reported operational control for all of its border miles 
although Border Patrol did not have the ability to detect and apprehend 
illegal entries who use ultra-light aircraft and tunnels.\8\ In fiscal 
year 2009 Yuma sector reported that of the known illegal entries, about 
half were apprehended somewhere in the sector, about 40 percent were 
turned back across the border sometime after entry, and about 10 
percent were ``got aways.''\9\
---------------------------------------------------------------------------
    \8\ An ultra-light aircraft is defined in Federal aviation 
regulations, 14 CFR  103.1 (and subsequent advisory circulars) as a 
single-seat powered flying machine that weighs less than 254 pounds, 
has a top speed of 55 knots (63 miles per hour), stalls at 24 knots (28 
mph) or less and carries no more than 5 gallons of fuel.
    \9\ ``Got aways'' are defined as persons who, after making an 
illegal entry, are not turned back or apprehended.
---------------------------------------------------------------------------
    Nearly two-thirds of the 1,120 southwest border miles that had not 
yet achieved operational control were reported at the ``monitored'' 
level, meaning that across these miles, the probability of detecting 
illegal cross-border activity was high; however, the ability to respond 
was defined by accessibility to the area or availability of resources 
(see fig. 5). The remaining miles were reported at ``low-level 
monitored,'' meaning that resources or infrastructure inhibited 
detection or interdiction of cross-border illegal activity. Border 
Patrol reported that these two levels of control were not acceptable 
for border security.\10\
---------------------------------------------------------------------------
    \10\ None of the southwest border miles was classified at the 
lowest level of control--remote/low activity--which occurs when 
information is lacking to develop a meaningful border control strategy 
because of inaccessibility or lack of resources. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 dhs's transition to new border security measures may reduce oversight 
            and resources requested for the southwest border
    DHS is replacing its border security measures, which could 
temporarily reduce information provided to Congress and the public on 
program results. Border Patrol had established border miles under 
effective control as an outcome measure of border security operations 
between the ports of entry under the Government Performance and Results 
Act of 1993 (GPRA).\11\ DHS plans to improve the quality of border 
security measures by developing new measures that reflect a more 
quantitative methodology to estimate outcomes. CBP is developing a new 
methodology and measures for border security, which CBP expects to be 
in place by fiscal year 2012.
---------------------------------------------------------------------------
    \11\ Under GPRA, agencies are required to hold programs accountable 
to Congress and the public by establishing program goals, identifying 
performance measures used to indicate progress toward meeting the 
goals, and using the results to improve performance, as necessary. This 
information is publicly reported each year in the Department's 
performance accountability report. Outcome measures offer information 
on the results of the direct products and services a program has 
delivered.
---------------------------------------------------------------------------
    The absence of measures for border security outcomes in DHS's 
Fiscal Year 2010-2012 Annual Performance Report may reduce oversight 
and DHS accountability. DHS reported that until new measures of border 
security outcomes are in place the Department will report interim 
measures of performance that are to provide oversight and 
accountability of results on the border. However, these measures of 
performance output, such as the number of apprehensions on the 
southwest border between the ports of entry, do not inform on program 
results and therefore may reduce oversight and DHS accountability.\12\ 
Studies commissioned by CBP have documented that the number of 
apprehensions bears little relationship to effectiveness because agency 
officials do not compare these numbers to the amount of illegal 
activity that crosses the border undetected.\13\
---------------------------------------------------------------------------
    \12\ Other performance measures the Border Patrol plans to report 
on include deployment of Border Patrol agents and joint operations on 
the southwest border. These measures, which focus on the quantity of 
direct products and services a program delivers rather than program 
results, are classified as output measures.
    \13\ For example, see Homeland Security Institute, Measuring the 
Effect of the Arizona Border Control Initiative (Arlington, VA: Oct. 
18, 2005).
---------------------------------------------------------------------------
    As of February 2011 CBP did not have an estimate of the time and 
efforts that are needed to secure the southwest border as it 
transitions to a new methodology for measuring border security. In 
prior years, Border Patrol sectors annually adjusted the estimated 
resource requirements that they deemed necessary to achieve operational 
control. Under the new methodology, Border Patrol headquarters 
officials said that sectors are to be expected to use the existing 
personnel and infrastructure as a baseline for the agency's defense-in-
depth approach and focus requests for additional resources on what is 
necessary to respond to the sectors' priority threats for the coming 
year. DHS, CBP, and Border Patrol headquarters officials said that this 
approach to securing the border is expected to result in a more 
flexible and cost-effective approach to border security and resource 
allocation based on changing risk across locations. As a result, Border 
Patrol headquarters officials expect that they will request fewer 
resources to secure the border. We will continue to assess DHS's 
efforts for measuring border security and plan to report our final 
results later this year. DHS generally agreed with the information in 
this statement and provided language clarifying the agency's rationale 
for replacing border security outcome measures and technical comments, 
which we incorporated as appropriate.
    Chairwoman Miller, this completes my prepared statement. I would be 
happy to respond to any questions you or Members of the subcommittee 
may have.

    Mrs. Miller. Thank you very much, Mr. Stana.
    I turn now to Mayor Salinas for your testimony.
    Mr. Salinas. Thank you.
    Mrs. Miller. Mayor.

   STATEMENT OF RAUL G. SALINAS, MAYOR, CITY OF LAREDO, TEXAS

    Mr. Salinas. Chairwoman Miller, Ranking Member Cuellar and 
Members of the subcommittee. My name is Raul Salinas. I have 
the honor of serving as mayor of the city of Laredo, Texas. 
Before I offer my testimony, I hope you will permit me every 
mayor's prerogative of bragging about one of my constituents, 
Laredo's Congressman Henry Cuellar. I have had the pleasure of 
working with Congressman Cuellar on numerous border security 
efforts on which Laredo and the Nation are beneficiaries.
    I seek to offer a number of simple messages in my testimony 
today. What is homeland security to the Nation is home-town 
security to those of us on the border. Securing our border must 
be done in a manner that does not close them to trade and 
community. We recommend building bridges of commerce and 
friendship and by employing technology and creativity to 
achieve enhanced security.
    We would respectfully remind the Congress that a border is 
not a turnstile. Obligations run in both directions.
    The United States has an obligation to our neighbors to the 
South to slow, if not stop, the flow of illegal guns, drug 
money and stolen cars. Federal funding for homeland security 
should be based on threat, not the type of a port or the size 
of a community and should compensate local communities that are 
providing protection and service to the Nation and not be 
biased.
    It is refreshing that this subcommittee, six border voices, 
to offer suggestions on how to best balance the twin goals of 
achieving security while promoting commerce and community. But 
I am not surprised.
    Reading the background of Chairwoman Miller, it becomes 
clear. You are a former local elected official from a community 
that appears to be Laredo's northern cousin.
    Port Huron Blue Water Bridge sounds a great deal like our 
bridges in Laredo. The Blue Water Bridge can handle up to 6,000 
trucks on its busiest days. While in Laredo, we handle just 
over 11,000 trucks a day.
    That number is down from 13,000 trucks a day just 2 short 
years ago. While many in the Nation eagerly await the Dow Jones 
industrial average return to 13,000, I would think that the 
better barometer for economic recovery is when Laredo hits 
13,000 trucks.
    Like Port Huron, Laredo is also a busy rail head. Recent 
Federal Rail Administration statistics list Port Huron as the 
leading northern rail port, while Laredo is the leading 
southern rail port. I would say that with Laredo's Congressman 
Henry Cuellar as the Ranking Member, the Nation has two great 
leaders heading this committee. This committee--or subcommittee 
can appreciate our message.
    While others talk about homeland security, we seek home-
town security. A traditional greeting in Laredo is, ``Mi casa 
es su casa,'' or, ``My house is your house.'' Laredo and, I 
suspect, Port Huron would respectfully remind all that your 
borders are our homes.
    Despite being the largest southern port and the sixth 
largest Custom district in the United States, Laredo is not 
entitled to any direct Federal funding under any homeland 
security program. We move more products by truck and rail than 
any land port and more products than any land, sea port, with 
the exceptions of New York, Los Angeles, Houston, New Orleans, 
and Detroit.
    But because the Federal Government has chosen to distribute 
its homeland security funds based on population or if the 
community is a water port, Laredo receives none. Laredo stands 
guard on the border. We have reinforced Federal law 
enforcement, partnering, and responding to chemical and 
biological threats and support the Nation's commerce. Federal 
funding for homeland security should compensate local 
communities that are providing protection to the Nation.
    The easiest way to accomplish this goal is to create a 
border category in all funding formulas. While I assume the 
intent of this hearing is to address traditional threats at the 
border, I would like to raise the additional threat of an 
unintentional or intentional medical or biological threat. In 
Laredo, we say, ``When Mexico coughs, Laredo gets the cold.''
    Disease does not respect the border, a wall or even the 
most professional of Custom and Border Patrol agents. Laredo's 
health department, many times, is the Nation's first line of 
defense.
    In conclusion, we must make our borders safe, not close 
them to trade and community. The Nation must be dedicated to 
enhancing the security of our borders. But that commitment must 
be made with a concurrent commitment to ensuring that our 
borders continue to operate efficiently in moving people and 
goods.
    Finally, Laredo, and I suspect, Port Huron, hope that all 
in Congress, like the two leaders here today, appreciate that 
local voices must be part of the solution. For while it is the 
Nation's border you seek to secure, they are our homes.
    Thank you very much. I would be glad to answer any 
questions.
    [The statement of Mr. Salinas follows:]
                 Prepared Statement of Raul G. Salinas
                           February 15, 2011
   keeping the border both secure and sustainable the need to build 
                           bridges not walls
     1. introduction--laredo and port huron--mirrors of each other
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, my name is Raul Salinas. I have the honor of serving as 
the mayor of Laredo, Texas. I am grateful to you for inviting me to 
share with you the following messages from Laredo:

  <bullet> What is homeland security to the Nation is hometown security 
        to those of us on the border.

  <bullet> Securing our borders must be done in a manner that does not 
        close them to trade and community. We recommend building 
        bridges of commerce and friendship, and by employing technology 
        and creativity to achieve enhanced security.

  <bullet> We would respectfully remind the Congress that a border is 
        not a turnstile. Obligations run in both directions and the 
        United States has an obligation to our neighbors to the south 
        to slow, if not stop, the flow of illegal guns, drug money, and 
        stolen cars.

  <bullet> Federal funding for homeland security:

    <bullet> Should be based on threat; not the type of a port or the 
            size of a community; and

    <bullet> Should compensate local communities that are providing 
            protection and service to the Nation and not be based.
          2. port laredo and port huron--mirrors of each other
    It is refreshing that this subcommittee seeks border voices to 
offer suggestions on how best to balance the twin goals of achieving 
security while promoting commerce and community. But I am not 
surprised. Reading the background of Chairwoman Miller, it becomes 
clear. You are a former local elected official from a community that 
appears to be Laredo's northern cousin.
    Port Huron's Blue Water Bridge sounds a great deal like our bridges 
in Laredo. The Blue Water Bridge can handle up to 6,000 trucks on its 
busiest days, while in Laredo we average just over 11,000 trucks a day. 
(That number is down from 13,000 trucks a day just 2 short years ago. 
While many in the Nation eagerly await the Dow Jones Industrial 
Average's return to 13,000--I think the better barometer for economic 
recovery is when Laredo hits 13,000 trucks.)
    Like Port Huron, Laredo is also a busy railhead. Recent Federal 
Rail Administration statistics list Port Huron as the leading northern 
rail port, while Laredo is the leading southern rail port.
    I would say that with Laredo's Congressman Henry Cuellar as the 
Ranking Member, the Nation has the two great leaders heading this 
committee. This subcommittee can appreciate our message. While others 
talk about homeland security--we seek home-town security.
    A traditional greeting in Laredo is ``Mi Casa--Su Casa.'' Or ``My 
house is your house.'' Laredo, and I suspect Port Huron, would 
respectfully remind all, that your borders are our homes.
         3. the two laredos and the role we play on the border
    Laredo is at the center of the primary trade route connecting 
Canada, the United States, and Mexico. We are the gateway to Mexico's 
burgeoning industrial complex. Laredo and Nuevo Laredo, our sister 
city, offer markets, business opportunities, and profit potential which 
business and industry simply cannot find anywhere else. We are the 
fastest growing city east of the Rocky Mountains.
    Los Dos Laredos are actually one community divided by a river. 
Originally settled by the Spaniards in 1755, Laredo/Nuevo Laredo became 
the first ``official'' port of entry on the U.S./Mexico border in 1851. 
Now, the Laredo Customs District handles more trade than all the ports 
of Southern California, Arizona, New Mexico, and West Texas combined, 
and our role will only grow as we are strategically positioned at the 
convergence of Mexico's primary highway and railroad leading from 
Central America through Mexico City, Saltillo, and Monterrey, the 
industrial heart of Mexico. At Laredo these thoroughfares of commerce 
meet with two major U.S. rail lines and Interstate 35.
    Also, because so much of the Nation's automotive and electronics 
inventory flows through Port Laredo, it is estimated that a closing of 
Port Laredo for just a day would result in economic disruption in those 
two vital industries.
               4. laredo's river vega--creative solution
    Laredo believes that we should be building bridges of commerce and 
friendship, not walls to community and trade. One should not confuse 
this message, however, to say that security is not necessary.
    Before the people of Laredo honored me with their votes as mayor, I 
spent a career in law enforcement. During that time the idea of 
community policing took hold. The idea was that security is a concern 
for all, and enforcement need not be a punitive act, but an act of 
community enhancement.
    Today Laredo offers that same philosophy in response to any 
proposal for a border wall/fence with a program we call the River Vega 
proposal. We understand that there is a need for border security, but 
we refuse to believe that such security can only be achieved by means 
of a wall that divides our community not unlike that wall that once 
divided Berlin. Like Port Huron, Laredo is blessed with a river that 
provides a natural boundary between our selves and our colleagues 
across the river. Laredo suggests that rather than a wall, we embrace 
the natural boundary of the river and create a river walk or what we 
call our River Vega. A River Vega will stand as a shield against those 
that would harm the citizens on either shore. Because the wall-like 
foundation of the River Vega serves as a river beautification project 
to support lighted parks and walkways, it will say to our partners to 
the South, that our river and community are shared gifts that should be 
celebrated. It will also say to those that would harm us that God has 
provided a wonderful border that can be harnessed to preserve security.
                5. funding should be addressed to needs
    Despite being the largest southern port; and the 6th largest 
Customs District in the United States \1\--Laredo is not entitled to 
any direct Federal funding under any of Homeland Security program. We 
move more products by truck and rail than any land port and more 
products than any land/seaport with the exceptions of New York, Los 
Angeles, Houston, New Orleans, and Detroit. But, because the Federal 
Government has chosen to distribute its homeland security funds based 
on population, or if the community is a water port, Laredo receives 
none.
---------------------------------------------------------------------------
    \1\ Laredo trails only Los Angeles, New York, Houston, Detroit, and 
New Orleans in total value of trade conducted and is the only pure land 
port in the top 10.
---------------------------------------------------------------------------
    We are honored to be in the company of Los Angeles, New York, 
Houston, Detroit, and New Orleans. But Laredo cannot meet the 
definition of a sea port for DHS funds and Laredo is but \1/25\ the 
size of the smallest of these MSAs. We therefore miss out on both pots 
of homeland security funding: UASI funds and port funds. Despite the 
heroic efforts of Rep. Cuellar, it seems that Washington has failed to 
get the message that homeland security starts at the border, and that 
trade volume, which can represent threat level, ought to be the funding 
factor--not whether a port is on the water or in a big city.
    Despite the lack of funding from the Federal Government, Laredo 
stands guard on the border. We reinforce Federal law enforcement, 
partner in responding to chemical and biological threats and support 
the Nation's commerce. Federal funding for homeland security should 
compensate local communities that are providing protection to the 
Nation. The easiest way to accomplish this goal is to create a border 
category in all funding formulas.
                          6. health challenges
    While I assume the intent of this hearing is to address traditional 
threats we face at the border, I would like to raise the additional 
threat of an intentional or unintentional medical or biological attack. 
In Laredo we say: ``When Nuevo Laredo, Mexico coughs, Laredo gets the 
cold.'' Disease does not respect a border, a wall, or even the most 
professional of custom and border patrol agents.
    When you think of the potential public health threats that can 
cause epidemics, contaminate our water or food supply, there is no area 
more vulnerable than the U.S.-Mexico Border. In Laredo, we are proud to 
provide a first line of defense for our community and the Nation. For 
example, during the world-wide Severe Acute Respiratory Syndrome (SARS) 
threat, there were five (5) mainland Chinese nationals that entered the 
United States illegally through the Freer, Texas border post. The 
Customs and Border Patrol called us in Laredo to inform us that two of 
Chinese nationals had a fever. (Please note, it was not a Laredo Border 
crossing but individuals in Freer, Texas, an hour's drive away.) We 
responded and conducted a rapid and immediate thorough investigation, 
instituting quarantine and isolation procedures for the prevention and 
protection of all. This effort included a response to protect over 30 
Federal agents, 25 Mexican and Central Americans (caught with the 
Chinese) as well the well-being of all Laredoans. We also had to deal 
with Federal and State health and immigration authorities from both 
countries. The City of Laredo Health Department (CLHD) made it our 
immediate responsibility to assure the protection of all and the 
disease containment to prevent a potential spread of a highly 
communicable disease that could have impacted the Nation.
    While I think we can all agree this was the responsibility of 
Federal authorities, Laredo alone was able to respond.
                             7. conclusion
    I seek to deliver a simple, but important, message. We must make 
our borders safe, but not close them to trade and community. The Nation 
must be dedicated to enhancing the security of our borders, but that 
commitment must be made with a concurrent commitment to ensuring that 
our borders continue to operate efficiently in moving people and goods. 
In Laredo we think that can be summoned up in another simple statement: 
We need to build bridges of commerce, not walls. Finally, Laredo, and I 
suspect Port Huron, hope that all in Congress, like the two leaders 
here today, appreciate that local voices must be part of the solution. 
For while it is the Nation's border you seek to secure, they are our 
homes.
    Thank you for your time and I look forward to answering your 
questions.

    Mrs. Miller. Thank you very much to all of our witnesses.
    Mayor, I appreciate you calling me your cousin.
    [Laughter.]
    Mrs. Miller. You know what that really means? Is first and 
foremost, we are all Americans.
    Mr. Salinas. Yes.
    Mrs. Miller. Before anything, before any party affiliation, 
before anything, we are all Americans. We all seek the same 
thing and serve the same constituency and want to secure our 
borders, whether that be the North or the South.
    I appreciated some of your comments as well about how the 
homeland security funds are allocated. It will be something 
that this committee, as we move to an authorizing piece of 
legislation this year, will be looking at as how we prioritize. 
Populations should not be the only criteria, but it is an 
important one; certainly, risk assessment, all of these things, 
I think, as we move forward, our path forward.
    But that really is why I wanted to have this initial 
hearing about operational control. As I mentioned, it has sort 
of become a buzz word. Everybody is saying we only have so much 
operational control. I am a bit concerned that we are getting 
so focused on this term that we don't really understand exactly 
what it means and what it means in the overall global 
perspective of how much a border we actually have under 
control.
    Chief, you mentioned that it is--I wrote that down. You 
said it is not an assessment actually of border security. You 
talked about some of the potential vulnerabilities, et cetera. 
I was looking through my notes here about some of the various 
characterizations that you use for operation control, whether 
it is controlled, managed, monitored, low-level monitored, 
remote low activity, et cetera.
    So there are a number of things that we are trying to 
understand here, I think, today and the American public 
understanding what we consider to be operational controlled and 
how secure our borders actually are. I know there is going to 
be a lot of questions today about the Southern border, and I 
have a limited amount of time. I am going to start my 
questioning about the Northern border, if I will.
    I say this because, first of all, believe me, not for a 
second would I underestimate the challenges that our Nation 
faces on the Southern border with the spillover of the drug 
cartels, some of the various things that are happening there. 
The mayor pointed out very well that we have to make sure that 
commerce is able to transit very expediently. We have those 
same concerns on the Northern border.
    You mentioned the Blue Water Bridge, which is in my 
district. The Ambassador Bridge in Mr. Clarke's district is 
actually the first-busiest border crossing on the Northern tier 
of the Nation in Detroit, then the Blue Water, which is 30 
miles, 30 minutes to the North, the second-busiest--the third-
busiest, the Peace Bridge in Mr. Higgins' district in Buffalo.
    I have the C.N. rail tunnel, which is the busiest rail 
tunnel entry into the Northern--into our Nation, actually, not 
just on the Northern border. So we sort of think we have some 
unique dynamics there. We are very concerned about the border 
security.
    At the same time, I will say this: We never can forget as a 
country that Canada is our best ally, is our biggest trading 
partner anywhere in the world. Certainly, they are in my State 
of Michigan, but Nationally as well. They are our friends. They 
are our neighbors.
    We--as we have consternation about some of the things that 
are happening with the thickening of the border, we always need 
to keep that in mind--just as the mayor says about making sure 
commerce, and passengers, et cetera, can cross our border as 
expeditiously as possible.
    So I would like to ask about the GAO report that came out 
about 2 weeks ago, I think, about the Northern border, which 
has got everybody in my area talking. There were some things 
that were pointed out in the GAO report saying that there was a 
lack of cooperation between Federal, State, and local law 
enforcement as well as the lack of cooperation in information 
sharing from the DHS component agencies such as ICE and Border 
Patrol.
    One thing, I think, that we learned from the 9/11 
Commission recommendation is that--I will tell you. My office, 
everybody has a copy of that recommendation. I keep telling my 
staff that is not shelf-ware.
    We need to keep looking at it and remembering some of the 
key elements of it, one of which was we had to move from the 
need to know to the need to share. So I was particularly 
concerned about the GAO findings with that on the Northern 
border.
    I think we have done a lot on the Northern border. 
Certainly, in the Southern border--you mentioned $3 billion 
respectfully on each border spent in the last fiscal year. But 
the largest room is always the room for improvement. We need to 
continue down that path.
    So I throw that out, perhaps, to Mr. Stana from the GAO. If 
you could comment on that report.
    Mr. Stana. Well, thank you. You know, the ``gee whiz'' 
statistic that got the most attention in that report was the 
miles under operational control. So we can have a discussion 
about that as the hearing proceeds.
    But you are exactly right, that what we were aiming to do 
is to figure out exactly how well are the agencies up there, 
Federal, State, local, Tribal, and the RCMP on the Canadian 
side--how well are we coordinating. It is a different solution 
that is required on the Northern border than the Southern 
border. You don't have hundreds of thousands of economic 
migrants coming south for the opportunity for employment.
    So you need to be able to get information and intelligence 
to the people who can use it the best and people can coordinate 
what the more limited amount of resources to come to an 
acceptable outcome. That is the key on the Northern border. It 
is not so much the--you know, having a whole string of agents 
linking arms and--because that would be a waste of time and 
money.
    It is making sure that everybody knows what their roles and 
responsibilities are. They stay in their lane, they coordinate, 
they cooperate, and they share.
    Mrs. Miller. I appreciate that.
    Chief, perhaps you could comment on that as well. As you 
and I had a chance to talk, the percentage of CBP officers and 
other kinds of things that have been utilized on the Northern 
border has ratcheted up significantly since you had--I think 
you were there in 1998 to 2000. But what is your thought on the 
GAO report?
    Chief Fisher. Yes, well, it--we as a law enforcement 
community continue to realize that until and unless we agree to 
share information and not look at our law enforcement 
jurisdictional authority from the areas in which we patrol and 
investigate, if we don't do that collectively against a common 
threat, we are never going to defeat those that are going to 
try to do harm to this country.
    What I mean by that is a couple of things that we have 
done, certainly, within the Border Patrol and within CBP. We 
recognize clearly that CBP or even the Border Patrol--we are 
never going to have enough resources to do this alone. We 
recognize this is a shared responsibility. I would suggest even 
the Secretary in her recent comments over the year and looking 
at this as a DHS enterprise in terms of our border security 
responsibilities.
    What is also challenging--and this--I have experienced this 
since I have been in uniform--is you have a lot of different--
when you start working with State and local governments, law 
enforcement agencies, the other Federal agencies, you have 
generally--you have investigators that have a whole host of 
cases that they are working. You have, for instance, CBP, which 
are predominantly interdictors.
    A lot of times, it is just a cultural difference in the way 
that we look at information. For instance, an investigator, for 
instance, would take some information. It may be human 
intelligence or some pocket trash and would look at that as a 
case or information to go towards prosecution. So, what they 
would do is they would take that information, put it in a 
folder, close it up, not share it with anybody because it may 
be discoverable and it may limit prosecution down the line.
    Investigators or interdictors would look at that as key 
information, tactical intelligence to be able to prevent 
something from happening in the first instance. Now, I am just 
suggesting that is just a cultural difference as an example 
that we are working very closely.
    I think some of the IBET teams, for instance, the 
Integrated Border Enforcement Teams, the joint terrorism task 
force--I think over the years as we do more and more sharing of 
the information, we have a better understanding of those types 
of differences between the cultures, but recognizing that our 
common objectives are fundamentally the same as it relates to 
protecting this country.
    Mrs. Miller. Thank you, Chief.
    At this time, I would recognize the Ranking Member, Mr. 
Cuellar, for his questions.
    Mr. Cuellar. Thank you, Madam Chairwoman. Before I get 
started with my 5 minutes, I would ask unanimous consent that 
the gentlewoman from Texas, Ms. Jackson Lee, be authorized to 
sit for the purposes of questioning witnesses during this 
hearing.
    Mrs. Miller. Without objection.
    Mr. Cuellar. Thank you very much.
    Let me ask--it has to do with performance and results.
    Mr. Stana, in your written testimony on page 12, you 
explained that Border Patrol has measured performance based on 
the Government Performance and Results Act of 1993, the GPRA, 
and that DHS is in the process of developing measures that 
reflect a more quantitative methodology to measure performance.
    But keep in mind--I assume when you wrote this, this was 
before we passed the new law, the law that I passed dealing 
with the--actually, the modernization and performance results 
that we passed back in December of this last year, which means 
that the measures are going to be more focused on results at, 
you know, the end.
    Could you both--this is both to--both Mr. Fisher and Mr. 
Stana. Are we measuring more activity than results? In other 
words, like you said, if we give you X amount of dollars, what 
are we getting for those dollars? How much do we spend for the 
border? What was it, about $3 billion?
    Mr. Stana. Yes, over three.
    Mr. Cuellar. Over $3 billion. What is the apprehension for 
that period?
    Mr. Stana. Well, and that is the rub. If you look at the 
latest performance statistics that were just issued this week--
and I know the Border Patrol is working on revising this. We 
have spoken to their people, and they understand the 
shortcomings of just having these kinds of things.
    But what you have is a numerator here. You have a number of 
apprehensions, for example. But you don't know how many people 
might have been there to apprehend, how many crossers were 
there. When you watch a baseball game, they put a batting 
average up. You kind of judge whether--how many hits you get 
for how many at-bats. Here what you are getting is just the 
number of hits.
    You also have things like number of joint operations 
conducted. That is a good measure. But that is an activity 
measure. It doesn't tell you the results of those joint 
operations.
    Percent of detected conventional aircraft: That is not a 
bad measure, but that is not the only measure. For example, Mr. 
Thompson mentioned the SBInet deployments. We were just down 
there last week, and we witnessed three ultra-lights coming 
across the border. One buzzed the Tucson Airport, we 
understand.
    They never found anything more than that because they left 
camera range, and the UAF was otherwise occupied. They couldn't 
get a bead on it. So here is another get-away.
    So you have to have the numerator and the denominator to 
judge performance, not just the activity indicated by the 
numerator.
    Mr. Cuellar. Right.
    Mr. Fisher, I would ask you--and I assume you all talk. I 
mean, I hope this is not the only time that you all talk here. 
But, you know, one of my things on performance--and I did my 
dissertation on this. I am a big believer in this--is that a 
lot of times Government agencies measure activity. That is 
different from measuring the actual results that you want to 
get at the end.
    What is your take on this? Are you measuring--I am sure you 
are going to say no. But what do you think you are measuring 
right now? Give us some examples of measuring, that is the 
control, you know, the prevention of undocumented persons 
coming in and, of course, the illegal contraband. What are your 
measures of results?
    Chief Fisher. Yes, Congressman, I would also agree with you 
that we do not use activity and accomplishments anonymously 
because, I think, when you look and try to differentiate, as we 
have over the years, outputs versus outcomes, we recognize that 
we are not just going to count things for the sake of counting 
them.
    I will give you some examples. Apprehensions, for 
instance--you know, the numbers of apprehensions--again, 
depending upon what the outcome is, in a particular area where 
we are trying to gain operational control, going back to the 
terminology.
    Where we are experiencing high levels of illegal activity 
between the ports of entry, we want to measure both in terms of 
the detected entries and the apprehensions so that one is--we 
have a better understanding of what those detected entries are, 
and we would use technology and Border Patrol agents deployed 
across the border starting in the urban areas and moving our 
way out to the rural remote and so that we have a better 
confidence level that, based on those deployments, we do have a 
better sense of what the denominator is.
    Mr. Cuellar. Mr. Fisher, I know--my time is over, and I 
have got to ask a quick question of the mayor. But for the sake 
of time, could you work with the Chairwoman of the committee 
and the staff on--we want to look at the measures of--I think 
we ought to look at the measures to see how much is activity 
and how much is really results-oriented?
    Chief Fisher. Absolutely.
    Mr. Cuellar. If you all can do that as soon as possible.
    If you would just bear with me, just a quick question.
    Mrs. Miller. Certainly.
    Mr. Cuellar. Mayor, look. One of the problems we have with 
the--you know, I know we have got issues that the border is not 
perfect, like any other place. But one of the things is when 
the media keeps talking about this and this.
    If you talk to hospitals, it is hard to get doctors down 
there because they were saying we don't want to take our 
families down there because of what is happening. You know, 
they don't make that--you know, they don't distinguish between 
the border on the U.S. side and the Mexican side.
    I talked to university professors or the, you know, 
chancellors and the presidents. It is hard to get them. What 
are the crime rate--can you talk about, for example, the crime 
rate in Laredo that you----
    I gave you some numbers that, in the last 30 years, border 
county crime rate has gone down. You know, there are spikes, 
like anything else. But give us a little bit of your sense of 
securing the border.
    Mr. Salinas. Absolutely, Congressman. I think one of the 
key things in Laredo that where we have installed is a spirit 
of cooperation between local, county, State, and Federal 
agencies, everyone working together that sends a strong message 
to the other side.
    Now, we had eight homicides in Laredo. Most all of them 
have been solved. We have a decrease of at least 20 percent in 
stolen cars going South.
    We also had somewhat of a 30 percent increase in violent 
crime. But I think the key has to be in ensuring that we do our 
part. You know that the police department and the sheriff's 
department--we are all working together to try to confiscate 
those weapons that are going South, those stolen cars that are 
going South and, of course, the money.
    Those stolen cars and those weapons are contributing to the 
delinquency and to the cartels. So we have to ensure that we 
get the resources to be able to stop it--you know, stop those 
weapons from going South.
    Mr. Cuellar. Okay. Thank you, Mayor.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank you.
    Our final protocol, I now recognize the Ranking Minority 
Member of the full committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    Chief, it is good to see you again--all three of the 
witnesses. You distinguish yourselves respectively.
    Chief, recently the patrol stopped giving miles under 
control report. I am not sure what it is called. Generally, the 
public was becoming familiar with how many miles are under 
control, this kind of thing.
    You have discontinued it, but you haven't put anything in 
its place. Why is that?
    Chief Fisher. One of the things, Congressman, that we are 
looking at--one is I firmly believe that the Border Patrol 
doesn't have the corner market on establishing what is under--
what is--what border security is at any given point along our 
borders. We do that in concert with a lot of our partners.
    For instance, when we were measuring miles of border 
control, initially years ago when we were looking and looking 
for fence, the question was always, well, how many--how much 
fence do you need, how many Border Patrol agents do you need. 
So what we do is we applied those resources on what we thought 
we need at the time in a linear fashion.
    We just wanted to keep track of that as well because we did 
see in the areas where we were increasing pedestrian fence and 
vehicle barricades. We started adding the technology and the 
Border Patrol agents, we were seeing results because of those 
deployments. So, what it did for us as an organization--it put 
our field leadership in the position to make those informed 
judgments and ultimate decisions about what the resource 
requirement was against what was happening and what we had a 
better sense of managing the border or having a better sense of 
what those threats were coming in.
    So, we did that. We have done it over a series of miles, 
again, not contiguous. Then we used those definitions to 
differentiate what we received as a result of operational 
experience.
    Mr. Thompson. Well, the--on the other side of the fence, 
how do you--how do you now convince the public that we are any 
better off, since now we don't have access to any of the 
information?
    Chief Fisher. Certainly. Well, we still use additional 
metrics, whether we are going to do it by miles or not. For 
instance, we will still and do report out levels of activity. 
We also, working with our partners, take a look at within the 
communities the crime rates, for instance.
    We take a look at quality of life issues such as areas that 
previously were ``out of control.'' I will take you back to San 
Diego in the mid-1990s when, you know, 200 to 300 yards north 
of that border real estate--you could have bought an acre of 
real estate there for $50.
    After the resources were acquired over a period of time, 
the vitality within that border environment increased. So, that 
same real estate then went to $500,000 an acre. You started 
seeing malls and Neiman Marcus and all those stores within a 
stone's throw from the border. Those are things that we had to 
make that assessment.
    Mr. Thompson. But I am trying to get at--but that is kind 
of interim.
    But what do we mean--and, Mr. Stana, did you all look at 
this? Can you help me out with that?
    Mr. Stana. Yes, we did. You know, first off, I think we 
ought to--you know, to his credit, the chief is trying to 
institute measures and manage by the numbers, which is always a 
good thing. Management 101 would tell you you get what you 
count.
    I didn't think miles under operational control is a bad 
measure. It wasn't perfect. But if you looked at how they 
developed it and, you know, some of the controls for 
reliability and data that they put into it, again, not perfect, 
but it was something that was easy to understand. You had a 
numerator, and you had a denominator.
    I think what--you know, going forward, there are other 
measures that ought to be considered. For example, if you are 
talking about the effectiveness of cooperation on the Northern 
border, maybe survey the participants in those task teams to 
see how happy everybody is. You know, the Border Patrol and the 
Forest Service have a history of not working well together.
    But if that is what you mean, Mr. Thompson, about what 
other measures might be available, there are other measures: 
You know, happiness with--of the staff in their roles and 
responsibilities, other measures on border control. For 
example, in the current border control measures that I have 
seen the interim for say nothing about drugs or contraband.
    I mean, there is a line on seized weapons and currency, but 
it is an activity measure. You know, $40 million seized in cash 
out of an estimated $19 to $39 billion, you know, doesn't give 
you comfort as a stretch goal.
    Mr. Thompson. Yes. Thank you.
    Mayor, you have had some experience on both sides, law 
enforcement now as an elected official. Are you satisfied with 
the level of cooperation between Federal, State, and local? Or 
are there some things you have looked at that, if it was up to 
you, you would improve? Can you give us some comments on that?
    Mr. Salinas. Absolutely. I think that the spirit of 
cooperation is definitely there because it sends a strong 
message to the bad guys.
    However, I think that what we need is funding so we can 
have more personnel 24/7 on the bridges so we can confiscate 
those illegal, illicit monies that are going South and those 
stolen cars and the weapons, because that is the crux of the 
problem. So in answering your question, I think that we would 
appreciate being considered for additional funding so we can 
have manpower at the bridges to be able to get the job done and 
keep Americans safe and keep the violence from spreading into 
our side of the border.
    Mr. Thompson. Thank you.
    Yield back.
    Mrs. Miller. Thank you.
    The Chairwoman now recognizes Mr. Quayle, from Arizona.
    Mr. Quayle. Thank you, Madam Chairwoman.
    Thank you to the witnesses for being here today.
    Mr. Stana, I want to go back to those performance measures 
because there has been a lot of publicity and talk about the 
statistics that were touted the last couple of weeks by 
Secretary Napolitano and her belief that we have the Southern 
border under a good amount of control, which came as a surprise 
to a lot of people in rural Arizona. But then she came back to 
this committee last week and understood and admitted that they 
don't know the number of illegal immigrants that get across the 
border.
    So it goes back to your numerator, denominator problem. 
Because if we just use it based on apprehensions, if we are 
just apprehending any illegal immigrant, wouldn't we actually 
get complete and total control of our border?
    Mr. Stana. Well, you are raising a good point. You have to 
know what it is you are trying to measure. It has to key to the 
strategic plan. If the strategic plan is to control the border, 
then you have to know what you are dealing with. You have to 
know the denominator. That puts the numerator in some kind of 
context.
    Apprehensions only would tell you one thing. That is sort 
of dependent on lots of variables: How healthy our economy is. 
In a bad economy, apprehensions are likely to go low because 
the denominator is going to be reduced. So you are raising a 
good point.
    Mr. Quayle. Since--what do you think would be the best way 
to actually get reliable statistics so that we can actually--as 
you see, notice where our dollars are going and how we can get 
results-oriented, rather than just focusing on the inputs, we 
have got to see what is going on with the outputs as well?
    Mr. Stana. Well, I think it starts with clearly 
articulating what it is you are trying to do. I think if you 
look at the planning documents, some of that said it could be 
clearer. But some of that is in there. But if your goal is to 
stop illegal incursions at the border, for example, which is 
the position that many in Arizona take, you could create a 
measure.
    Because the Border Patrol tracks its apprehensions by GPS 
data or by certain quadrants, you could create a measure that 
says what percent of border incursions are you apprehending 
within, say, 5 miles of the border. What percent? The goal 
might be 80 percent or 90 percent. You could track that. Again, 
you get what you measure.
    Mr. Quayle. Okay.
    Now, Chief Fisher, the various--and especially in the rural 
areas on the Southern border, there are a lot of wilderness 
areas that are designated. Now, I know that there are certain 
restrictions that sometimes hamper the Border Patrol agents' 
ability to actually apprehend and pursue people who are 
crossing illegally in those wilderness-designated areas. Could 
you describe some of the restrictions in those areas?
    Chief Fisher. Well, I think over the years and certainly, 
with our memorandum of understanding with the Department of the 
Interior and the USDA and some of those others, we have found 
that we do have access into those areas in areas of hot 
pursuit, for instance. If we need to access those lands, even 
the wilderness, it does allow us to have access to those areas.
    Mr. Quayle. So there are no vehicular restrictions? You are 
saying that there is absolutely no restrictions on what you can 
do in those wilderness areas?
    Chief Fisher. There are some restrictions in terms of our 
good stewardship towards the environment versus our border 
security mission. In most cases, along the border, the land 
managers, along with our field leadership, and working within 
the existing memorandum of understanding, that we are able to 
work those out.
    Mr. Quayle. Okay. In your written testimony, you speak 
about--you wrote about Operation Streamline and its 
effectiveness in the human sector and also in San Diego as well 
and other sectors across the Southern border. Have you been in 
touch and been working with the DOJ to try to see how much it 
would cost to have Operation Streamline across the total--the 
totality of the Southern border?
    Chief Fisher. Yes, but we are actually talking with them 
and others. We are not just looking at the consequence programs 
individually as programs, for instance. I mean, Streamline is 
one. Oasis is another, ACHEP.
    There is about 12 different consequences that we apply 
subsequent to an arrest. What we have found out in starting 
looking at each program we are talking a look and develop what 
is called a consequence delivery system because what we want to 
be able to do is not just put people into a particular 
consequence. You mentioned Streamline.
    You know, interestingly enough, you know, some of the 
discussion has been, well, we need to do more Streamline cases. 
But if you take a look at the different jurisdictional 
districts in which Streamline is applied--and really, 
Streamline is just an 8USD1326--in most cases, a prosecution, 
Federal prosecution.
    But the sentencing after that case could range from 3 to 5 
days to, you know, 6 to 8 months. So the consequences really--
the sentencing, as a result of the conviction, not the program 
itself. So what we are trying to do is figure out in places 
like Tucson. We are trying to make that effect--is that we are 
no longer just going to return those people back to the Nogales 
port of entry or the Douglas port of entry into Wawapreita. 
They are going to have a consequence other than voluntary 
return.
    In some cases, it will be Streamline. But it depends on 
what we are trying to affect, either the individual that we are 
apprehending, or the criminal organization. That is really 
helpful for us to then just abrogate just the apprehension data 
and really start looking at recidivism, start looking at what 
is the reapprehension rate, take a look at the difference 
between displacement and deflection for the first time so that 
we are not just looking at raw numbers or just doing programs 
for the sake of doing the programs.
    Mr. Quayle. Okay. Thank you.
    I yield back.
    Mrs. Miller. The Chairwoman recognizes Mr. Clarke, of 
Michigan.
    Mr. Clarke of Michigan. Thank you, Chairwoman Miller. You 
know, as a freshman Member of Congress and as a new Member on 
this subcommittee, I would just like to make a couple 
preliminary remarks before I pose my two questions.
    First of all, Chairwoman Miller, your depth of 
understanding of maritime issues and your understanding of the 
importance of securing our Northern border really provides me 
with a great opportunity to help represent the economic and 
security interests of my district, which, as you stated 
earlier, includes the busiest international border crossing in 
North America.
    I would like to also thank the Ranking Subcommittee Member, 
Representative Cuellar, for recommending this subcommittee 
assignment to me and also, probably most importantly, to 
Ranking Committee Member Thompson for extending the 
unprecedented courtesy of appointing me to this subcommittee. I 
thank you again for this opportunity.
    The--
    Ms. Sanchez. [Unintelligible.]
    [Laughter.]
    Mrs. Miller. Thank you, Representative Sanchez.
    Mr. Clarke of Michigan. This is the protocol you have to go 
through as a freshman Member.
    [Applause.]
    Mr. Clarke of Michigan. The border in--the Detroit border 
sector of the 863 miles--apparently, CBP says that only 4 of 
those miles are under operational control.
    Chief Fisher, could you--as much as you can in this open 
session, what is your plan on securing this border, especially 
the border of the Detroit sector?
    Chief Fisher. Congressman, I will tell you--and Chairwoman 
mentioned it earlier. When I first got to Detroit in 1998, I 
was faced with a different border than I had been brought into 
this organization back in 1987. What I experienced up there was 
841 miles of water border on the most heavily populated boating 
population in the area, 1.5, at least at the time, million 
boats registered. There were 24 Border Patrol agents to secure 
that border.
    So, we have evolved since that time. What we have 
realized--that, on the Northern border in particular, in places 
like Detroit, it is very critical for us to have, one, the 
right information about who and what is trying to come across 
that border. Information for us is going to be the key.
    It is going to be the catalyst for us to then be able to 
make informed judgments about what is the requirements in terms 
of the resources and what is the--is going to be required in 
terms of an operational response. If we have information that 
somebody tonight is going to be coming across the Detroit 
River, what are we going to do?
    By the way, that is not just the Border Patrol having that 
discussion, you know, in a muster. We are doing this loud along 
with our partners who also have equities and jurisdictional 
authorities in those areas.
    That is why for us it is really important that we continue 
with the joint terrorism task force, with the other task forces 
so that we, along with the local law enforcement community, can 
continue to leverage all of those jurisdictional authorities 
against a common threat. So information is going to be a key.
    Then once we move down from the information and 
intelligence phase--I talk a little bit about the operational 
integration. You know? It is different than having the chief of 
police and the chief of the Border Patrol and the sheriff and 
the county sit down once a month for coffee.
    We really have to understand, No. 1, start applying some 
focus and targeted enforcement, really look at the operational 
discipline that is going to be required for that. Third is 
taking a look at unified commands and joint commands, where 
applicable. Because until and unless we can describe what is it 
that we are trying to accomplish in very specific strategic 
objective frameworks, then it is very difficult for us to 
actually go out and deploy in a focused area.
    Mr. Clarke of Michigan. Thank you, Chief. One more 
question. Thank you.
    According to the GAO report--and I would like to quote. I 
believe this is on page 27. ``Border Patrol officials in the 
Detroit sector said that because they do not believe ICE shares 
information with them, coordination with ICE is hindered.''
    Now, also, later in that report, the DHS responds to the 
GAO's recommendation that there needs to be better compliance 
with the 2007 memorandum of understanding between the Border 
Patrol and ICE, that the Department's response is to resume 
coordination council. But the GAO indicate that there are some 
problems in the past with the structuring of that body and that 
it needs to be restructured. Mr. Stana says that that 
recommendation of how it should be restructured is outside of 
the scope of his report.
    But, Chief, if you could, if the restructuring of the 
coordination council would be involved in your response on how 
ICE and the Border Patrol could be better coordinated, how 
would you recommend that restructuring take place?
    Chief Fisher. Well, Congressman, I will tell you first we 
do have Border Patrol agents that are assigned to the ICE 
border enforcement task force. They are called the BEST. We do 
work with ICE on a variety--not just in Detroit, Northern--and 
in the Southern border. We are heavily dependent on other 
agencies, to include ICE.
    I will also tell you that there are between 21,370 Border 
Patrol agents that we will have by the end of this year. If you 
asked any one of those Border Patrol agents at any given time 
at a various location, there is probably some organization or 
agency that, in their understanding or their perception, that 
we are not working well with. That is not to discount what the 
GAO report indicated.
    I take those very seriously as a kind of an independent 
pulse on our organization. But I will tell you at the 
leadership, from here in Washington down to the field 
leadership, the organization within DHS and in particular, CBP 
and ICE is working well, both in terms of our interdiction 
capabilities augmenting their investigative capabilities.
    Mrs. Miller. Thank you.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Thank you, gentlemen, for being here today. I understand 
the enormous task that you have of securing our--the 
sovereignty of this country and also understand that the 
American people expect us to do just that, protect the 
sovereignty of the Nation and the sovereignty of the individual 
States.
    You know, I think about President Reagan talking about 
America being a shining city on a hill. He said that if that 
city has to have walls, then those walls need to have gates. 
Those gates would allow normal commerce. It would also control 
normal and legal immigration for folks that want to come to 
this beacon of freedom.
    So, I am struggling this morning with your definition of 
operational control. The Secure Fence Act of 2006, Congress 
defined operational control as the prevention of all unlawful 
entries into the United States, including entries by 
terrorists, other unlawful aliens, instruments of terrorism, 
narcotics, and other contraband.
    The CBP is publishing data stating that only 44 percent of 
the Southwest border is under operational control. A border 
State is suing the Federal Government for these same issues.
    You mentioned an acceptable level of operational control. I 
think the acceptable level of the American citizen is total 
control of our Southern border, our Northern border, our 
natural ports of entry where we determine who comes into this 
country, how many folks come here through legal means annually, 
what they come for, whether they are seeking citizenship. These 
are things, the questions that the American people are asking.
    So, given the fact--and I could go on about the GAO and 69 
miles of 39 or 87 miles on our Northern border being 
controlled, $3 billion spent on the Northern border. 
Rhetorically--and I don't expect you to answer this question. 
But rhetorically, I think of how much concrete stone and barbed 
wire could have been purchased and erected on our Southern 
border for $3 billion or a portion of that $3 billion.
    I understand you don't have total control on how your 
budget is expended. So that is why that is rhetorical. But what 
I would like to try to get to is a further understanding from 
you of what operational control really means.
    Chief Fisher. Congressman, I will say that part of our 
overall mission is to substantially increase the probability of 
apprehension of those people that seek to do harm to this 
country. In particular, in the Border Patrol's case, that would 
be between the legal ports of entry.
    I would agree with prevention is part of our strategy and 
what we are trying to do. But putting a 2-mile fence, for 
instance, on the border doesn't necessarily give you prevention 
because there is still going to be those individuals that are 
going to try to come over it, go underneath it, or go around 
it.
    So, as we incrementally build that and we just add the 
pedestrian fence, for instance, in some cases, in Yuma in 2005 
when we had over 2,300 vehicles just driving across the border, 
certainly, that was unsustainable from a border security 
standpoint. So, 1 year later, after we applied those resources, 
they have dwindled down to--right now--on average, the Yuma 
sector, which is part of that western part of Arizona, is 
seeing minimal activity levels as a result.
    So the prevention is part of what we try to achieve as 
well. But fence and Border Patrol agents and technology, in and 
of itself, isn't the only thing that we require to achieve, as 
you describe what the American people require.
    Because it is going to be a whole-of-Government approach 
and a whole-community approach to border security, you know, 
working with the State and local law enforcement agencies, for 
instance, working with the communities and in particular, those 
communities that are affected in the rural and remote areas 
where we don't have that level of presence, for instance, in 
terms of fencing or in terms of detection capability. But we 
will work those, along with our law enforcement partners 
predicated on intelligence that we use the resources that we 
have in a very focused and forward effort along with those 
community members.
    Mr. Duncan. Chief Fisher, I appreciate that. You are going 
to find a friend in me to help you achieve your mission. But I 
appreciate you saying that you are trying to stop folks that 
are wanting to do harm to this country.
    We have got a tremendous issue with folks that are just 
coming into this country illegally pursuing jobs and quality of 
life that we enjoy. I understand why they come. But you also 
said in your written statement that you currently have 
immigration laws, and these laws can't be ignored.
    The law is the law, and that our law enforcement officers 
and agents are bound to duty to enforce these laws. But the 
last time I checked, entering in this country without coming 
through a natural port of entry, through illegal means, is 
against the law.
    So, in addition to those that are wanting to harm this 
country through terrorism and other things, we also have a duty 
to protect the law, or enforce the law, of those that are 
coming here and breaking our laws, crossing our borders. That 
is in addition to what you are saying.
    Chief Fisher. Yes, Congressman. But, if I may add, when I 
had mentioned those people that would do harm to this country, 
I didn't do that at the exclusion of all other activity. 
Clearly, as law enforcement officers, we are bound by oath and 
by the Constitution and certainly, by the American people to 
enforce those laws. We will do them both within the 
Constitution, with a degree of compassion and consistency 
within this organization.
    Mr. Duncan. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. The Chairwoman recognizes the gentlelady from 
the U.S. Virgin Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Madam Chairwoman. It is a 
pleasure to be here on the subcommittee with both you and the 
Ranking Member.
    Welcome to our panel this morning. I want to, I think, 
follow up on Mr. Duncan. It was differences in the definition 
of operational control that CBP has been using versus Congress 
centered around the prevention.
    I am just wondering whether CBP as currently figured, 
staff, resource, and maybe--you know, and even legislation--
legislative mandates--are you able to move to the Congressional 
definition that includes prevention as you are currently 
staffed, configured, and resourced? Or does it require some 
changes?
    Chief Fisher. Congresswoman, in some areas, yes, where we 
are able to prevent the entry in the first instance. But I 
would not characterize all the borders that we have been able 
to prevent the entries.
    Mrs. Christensen. Okay. Well, I guess that leaves--well, is 
it that you need more staff? Do you need a different type of 
resource? Is there some legislative change that needs to be 
made?
    Chief Fisher. Well, what I can tell you right now--and what 
we are actually doing this year and into next year, is really 
increasing the detection capability that the Border Patrol 
agents have in between the ports of entry. Matter of fact, if 
you recall recently part of the assessment that the Secretary 
looked at for SBInet is going to give us the ability now to 
take all detection capability into consideration, and in 
particular, those global capabilities, whether the mobile 
surveillance systems, remote video surveillance systems, recon 
three's, which are the hand-held thermal imaging devices that 
Border Patrol agents need out in some of those canyons.
    So, once we start applying those levels of technology, you 
know, we have always stated over the years that in those areas 
where we do have the infrastructure in terms of pedestrian 
fence or vehicle barricades, where we do have a level of 
detection capability, in those areas, we are not necessarily 
gaining what we have defined as operational control, but 
sustaining it at that point, which generally requires less 
Border Patrol agents to do that. So right now, because we have 
seen incrementally over the last few years an infusion of 
Border Patrol agents and we have seen additional technology and 
we have seen the completion of the vast majority of that 
infrastructure, we are starting to think about the ways we 
apply our doctrine.
    That is why I mentioned that before. So right now, I am not 
suggesting that we need X amount more Border Patrol agents or 
technology. Those are the discussions that we as a leadership 
are having right now. What is it that we--how are we applying 
all those things now and years where we didn't?
    We have seen the border change in a variety of ways, not 
the least of which is those techniques, tactics, and procedures 
that the smuggling organizations, the trans-national criminal 
organizations are using. Right now, we are building that 
workforce to be able to figure out what is the best approach to 
do that.
    Mrs. Christensen. Mr. Stana, did you want to add something?
    Mr. Stana. No, I think we all realize that the word 
prevention is a very high bar.
    Mrs. Christensen. Yes.
    Mr. Stana. You know, what resources that would be needed to 
absolutely prevent every single incursion would be something 
probably out of reasonable consideration. But there are things 
that the Border Patrol and CBP and others could do to make sure 
that we are doing the best with what we have and what we can 
afford. We talked about many of those here. We have talked 
about technology. We have talked about coordination, 
information sharing, and making sure that we have the measures 
in place that we know we are putting our people where they are 
doing some good.
    Mrs. Christensen. Thank you. I think that I can squeeze in 
one more question. Again, it is about operational control.
    If you can't answer this question for me today, maybe you 
could at a later time, Chief. Could you give me an assessment 
of the level of operational control in the border area that I 
represent, so Puerto Rico, the Virgin Islands? Include Florida. 
How would you characterize the level of operational control? Is 
it undetermined, low-level monitored, monitored, managed, or 
controlled?
    Chief Fisher. Well, I think you raise a good point, 
Congresswoman. Certainly, in your 26 seconds that are left, I 
would just as soon give you a comprehensive review of that, and 
in particular, the methodology by which we make that 
assessment, if that is fair.
    Mrs. Christensen. Thank you. Yes, that will be quite fair.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank you.
    The Chairwoman now recognizes the gentleman from Alabama, 
Mr. Rogers.
    Mr. Rogers. Thank you, Madam Chairwoman.
    Thank all of you all for being here. I really appreciate 
it.
    Chief Fisher, I--when I first came on this committee before 
it was a standing committee, as a select committee, I didn't 
have a full appreciation of the professionalism and bravery of 
the CBP officers. But after multiple trips to the border, you 
all are a fine bunch of law enforcement officers and very 
brave.
    I know of the 24 years you have been, you have seen a lot 
of changes. But I have got to tell you. I don't understand 
where you come up with the belief that you have a different 
operational control standard than that set out by the law. Can 
you tell me how the CBP came up with a different definition 
than the one that was set out by the 2006 statute Mr. Duncan 
read to you?
    Chief Fisher. Well, sir, I don't--and if I mischaracterize 
it, let me be clear. We are not differentiating from what the 
law states.
    I was just explaining early when we developed a strategy 
and came up with the manner by which we were going to assess 
operational control, it wasn't in conflict with the 
legislation. I am just explaining the tactical use by which our 
field command--and as we report those lines of operational 
control, No. 1 is how we differentiate between the definitions; 
No. 2, that all the definitions as--even when they were 
written, are predicated on resources.
    Mr. Rogers. Yes, but you read a definition to this 
committee of operational control. It was not the statutory 
definition.
    Chief Fisher. Yes. Well, I am just--I am giving you our 
operational definition that we train our leadership to make 
those assessments----
    Mr. Rogers. That is my problem.
    Chief Fisher [continuing]. To.
    Mr. Rogers. You are a law enforcement officer. The law says 
you will prevent all illegals from coming in, just as Mr. 
Duncan read. My question is: Why would the CBP develop a 
functioning definition that is different from that that is set 
up in the law?
    Chief Fisher. Well, I don't know that I am understanding 
your qualification on that, sir. So when I say that we define 
it as the extent to which we are able to detect----
    Mr. Rogers. That is not what the law says. The law says, 
``The prevention of all unlawful entries into the United 
States,'' et cetera, et cetera.
    Chief Fisher. Right.
    Mr. Rogers. My question is: Should that be the standard 
against which you are measuring? Now, Mr. Stana has talked 
about measurements. Mr. Cuellar has talked about measurements. 
If we want a valid reading of how we are working toward 
achieving the legal standard, then you have got to measure all 
illegals.
    You know, I--frankly, as you will talk with David Aguilar, 
I am his best friend on this committee. I have great admiration 
for you all. But I have got to tell you. The last time you were 
here, I asked you: Do you need any more manpower? You know, 
when I came on this committee, we had 12,000 CBP agents. Now it 
is double that.
    When I asked you last time you were here, you said, no, I 
don't need any more. Well, we have got 1,100 National Guardsmen 
down there helping you. Obviously, you need more.
    So I go back to questions you have had asked by Mrs. 
Christensen. What do you need to secure the border? You know, 
and it may be as Mr. Stana just said, a figure that is 
astronomical and what you believe is unattainable. That is not 
your call.
    Your call is to tell you and tell us in your unvarnished 
opinion what you need to achieve the legal standard set out in 
2006. Then let us make the decision if we want to achieve 50 
percent of that or 60 percent or 75 percent.
    So I guess I am looking for that feedback and that number. 
What do you need to attain that rock-solid prevention of 
illegals coming across our border? Right now, let us just focus 
on the Southern border, even though the Northern border is just 
as important. Yet, that is the one you have the most 
familiarity with, as I understand.
    Chief Fisher. Yes, Congressman. You know, as I am--as you 
are asking the question, I am thinking about, you know, the 
last discussion that we had with our leadership in terms of--
again, our prevention is for anything that is coming across the 
border at that level that you qualified.
    The steps that I had determined or discussed in terms of 
the definition are the incremental steps to achieve that. So 
they are not disconnected, at least in my understanding of what 
those are.
    Mr. Rogers. You are correct. You are correct. It is not 
just the illegal aliens. It is other things as well.
    Chief Fisher. Right. But the other thing that we are seeing 
right now is--I cannot today, and certainly, not over the next 
couple of weeks, say this is the amount of Border Patrol agents 
that we are going to need at that absolute, to be able to 
prevent 100 percent people coming in because, again, even with 
the personnel, Border Patrol agents, in this case, the 
technology or the infrastructure--part of that, you know, 
qualification is going to be the manner in which we apply those 
and how we work with other agencies.
    I have got a real quick example. Maybe it will make the 
case a little bit. In areas of the 5 miles between San Ysidro 
and the old-time Mesa port of entry, a post where I came from 
previously, is we have a primary fence. We have the secondary 
fence, which is about 12 to 15 feet high. We have got all-
weather roads, which is basically a containment zone which 
gives us full patrol capabilities.
    We have stadium-style lights. We have full-time coverage, 
overlapping fields of fire with daytime and nighttime cameras. 
That is, by even our standard, one of the best places where we 
would achieve that. Yet, it is the same area where we have seen 
the most tunneling within our border.
    So, if you look at what is--we don't need more Border 
Patrol agents in that particular case. It may be some very 
specific, you know, detection capability. It may be information 
and intelligence networks. So it is not just--as we have stated 
over the years, personnel, technology, and infrastructure 
served us well to be able to get those resources down there.
    What we are trying to do is assess right now what is that 
combination. If we need some more, I will be the first to come 
back and ask for your support, sir.
    Mr. Rogers. Well, I want you to understand. The reason that 
you have got all that hardware on your collar is you are a 
professional. We count on your professional opinion.
    David Aguilar, who is the deputy commissioner, as well as 
Commissioner Bersin--I can assure you--I know the Chairwoman 
really well and the Ranking Member. They are my good friends. 
We are going to keep coming back until you all tell us what you 
need.
    So I hope that you will communicate with both the 
commissioner and deputy commissioner that you all have got to 
come up with a set of criteria and numbers that would give us 
functional control, operational control of the Southern border 
and the Northern border. Don't even--listen, I am not even 
talking about the coastal border right now, which you know is 
our biggest.
    Then let us make some policy decisions about what is 
practical for us to do as a Nation. I would appreciate that. I 
just want you to know I am not your enemy. I am a big supporter 
of CBP.
    But this is our job. This is what our constituents are 
asking. I understand the challenge that you talk about and Mr. 
Stana is talking about and the mayor talked about. But we need 
this information.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman recognizes Mr. Higgins, from New York.
    Mr. Higgins. Thank you, Madam Chairwoman. The issue of 
operational control is obviously very important. A lot of time 
was spent here talking about resources, human resources, the 
importance of Federal agencies, State agencies, and local 
agencies sharing information. I don't think enough has been 
said about infrastructure.
    Chief Fisher, you had mentioned it a couple of times, in 
your opening statement, once, and then in response to one of 
the questions here. I represent Buffalo and Western New York. 
The Peace Bridge connects Buffalo and western New York with 
southern Ontario. The Peace Bridge was constructed 83 years 
ago. The population of southern Ontario in that time had grown 
by over 300 percent.
    The Peace Bridge, when it was constructed, consisted of 
three lanes. It still has three lanes. They use an alternating 
lane system so 50 percent of the time, you are down to one 
lane. It is the busiest passenger crossing at the Northern 
border.
    The importance, I think, is to balance security and safety 
with the free flow of commerce. As the Chairwoman has said, 
Canada is our largest trading partner. We are friends.
    The President, in his budget, included $2.2 billion, in his 
proposed budget, for land ports of entry. The Peace Bridge is a 
priority, as far as we understand it. Could you just talk about 
the importance generally of infrastructure toward the goal of 
securing the borders and finding that balance between securing 
the border and not constricting the flow of goods and commerce 
from either the Northern and/or the Southern border?
    Chief Fisher. Congressman, thank you. I am going to attempt 
to go a little bit outside of my lane of expertise within the 
U.S. Customs and Border Protection and answer your question. I 
don't necessarily think--and I have heard the commissioner say 
this before, so I think I am on solid ground--that as we look 
at the ports of entry, in particular, that we don't look at 
security and the legal flow of goods and commerce into this 
country as necessarily a balance.
    I don't necessarily think it is a zero sum game. In other 
words, in order to increase the free flow of commerce, we have 
to somehow give up security and vice versa.
    What we try to do at the ports of entry, probably even more 
so than in between the ports of entry, is we try to find out as 
much as we can in advance of a crossing at the port of entry to 
spend less time about that and to spend more time about those 
things, people, and goods that we don't know about. So--and I 
think that, you know, recently with the signing of the 
commitments between both governments in Canada and the United 
States, you know, CBP is going to be actively engaged, as we 
currently are, with our law enforcement partners and government 
partners to figure out how we do that to make sure that those 
ports of entry are having the most economically viable passage 
of people and goods through there, but at the same time, not 
giving up on security.
    I think we do that a lot. Infrastructure, certainly, in 
some instances will play a part of that. But I think it is some 
of the policies and the manner in which we approach this that 
also can contribute to that as well.
    Mr. Stana. Yes, I think the bridge itself is only part of 
the issue up there, the Peace Bridge. As you know, you are kind 
of constricted in the area of inspection by--I think there is a 
park up there, and there is a neighborhood. Then you have got 
the river, and there is a freeway next to it. You are really 
kind of boxed in there. I know that issue very well because we 
did some work for then Senator Clinton on trying to get a pre-
inspection on the Fort Erie side. There were Canadian 
constitutional issues there that it couldn't really happen.
    Mr. Higgins. Yes, the pre-clearance, or shared border 
management concept has been rejected----
    Mr. Stana. Right.
    Mr. Higgins [continuing]. By homeland security as not 
workable.
    Mr. Stana. Yes.
    Mr. Higgins [continuing]. Given the two separate 
constitutions and other logistical issues.
    Mr. Stana. Exactly.
    Mr. Higgins. But you know, the bridge remains very, very 
constricted.
    Mr. Stana. Now, the bridge is a problem. It is the same 
issue with the Ambassador Bridge.
    Mr. Higgins. Yes.
    Mr. Stana. You know, where Chairwoman Miller is. That is, 
that the trick is, is getting the legitimate cargoes and people 
across quickly.
    Mr. Higgins. Right.
    Mr. Stana. There are different, you know, trusted traveler 
programs like FAST that get the cargoes across quickly. You 
know, you have people who pre-register, and we know them. We 
know their supply chain. They are not the problem. You have got 
to get to the vital few, the needle in the haystack. That is 
the trick there.
    Mr. Higgins. Just a final thought on this, Madam 
Chairwoman.
    I appreciate your emphasis on security exclusively. I don't 
believe it is a zero sum game. I believe it is a variable sum 
game that can be multiple winners. From my perspective, we have 
to balance the needs of security, but also the economic 
viability of the area and the enhancement of that economic 
viability by having a secured, but efficient bridge and port of 
entry plaza, inspection plaza to ensure that both passenger 
vehicles and trucks carrying goods is moving back and forth 
from Canada.
    Because, as the Chairwoman had said at the very outset, our 
economies are highly dependent on one another. Particularly in 
the Northeast, places like Buffalo, that is not growing, we 
seek to regionalize our economy, both east to--in New York, but 
also north into southern Ontario.
    The province of Ontario--94 percent of the population lives 
in southern Ontario. It is a population that is projected to 
grow by another million over the next decade. So it is very 
important that we stretch the infrastructure capacity both at 
the plaza and the bridge to promote the Nation's security, 
obviously, but also to promote economic development. Thank you.
    Mrs. Miller. I thank the gentleman. We are going to have a 
little bit of time for the second round. We are well-aware and 
cognizant of Chief Fisher's time constraints.
    But if I could, I am going to follow up on Mr. Higgins' 
comments about the plazas there in Buffalo and something that 
we call--what I would call reverse inspection, really. So, how 
we protect our infrastructure is of critical importance as we 
think about how we continue to expedite commerce to our great 
friends and neighbors and trading partners, the Canadians.
    It was interesting that President Obama and Prime Minister 
Harper just recently have come out with a new U.S./Canada 
agreement, which is focusing a lot on border security, some of 
the issues that we have with the thickening of the border and 
how we can accommodate all of these things. One of the things 
that was actually mentioned in there was the Detroit River 
crossing.
    We are going to be actually building another crossing 
there, something we call the DRIC. Well, it is still up in the 
air a bit, but there will be an additional Detroit River 
crossing, whether it is one that they call the DRIC or another 
one that would be the twinning of the Ambassador Bridge.
    However that works out, we do need an additional crossing 
in the Detroit sector there. The Canadians are so interested in 
it that they are actually going to loan the State of Michigan 
$550 million, which is our portion of the match. That is how 
serious they are about having an additional trade route there.
    The reverse inspection is something that, in my mind, that 
would be where they actually are secured before they cross the 
bridge, before they would cross the infrastructure. So, I know 
there has been problems because of the two nations and our two 
constitutions. But hopefully, this new U.S./Canadian agreement 
will look at some of those things and see if we can't work some 
of those out.
    I would also want to mention--and I always talk about the 
Northern border because, as I say, believe me, I am not 
deemphasizing what is happening on the Southern border. That is 
something that the American citizens are absolutely focused on 
Congress focusing our attention on, of securing our borders. 
But without quantifying the number, I think it is safe to say 
that the TIDEs list, which is a term that the American public 
became very familiar with after the Christmas day bomber when 
they said that that individual was not caught by the TIDEs 
list.
    The TIDEs list--we have significantly higher hits on the 
TIDE list on the Northern border than we do on the Southern 
border. So I just say that as a way to talk about the unique 
challenges that are happening on the Northern border, a 
different type of situation, perhaps.
    But I also wanted to mention something--I have listened to 
all my colleagues ask questions and was pointed out whether 
that was the GAO report about the Northern border or some of 
the problems along the Southern border, the 9/11 Commission 
recommendation about the need to know to the need to share 
information. We do have a pilot program, actually, in my 
district, which is a National pilot program that can be 
utilized by all of the stakeholders, both whether it is the 
north, the south, the coastal borders, everything.
    It is called an operational integration center where we--
they weren't really sure. I guess you weren't really sure what 
to call it. I like the term. I don't know where it came from. 
But it is a very cool term.
    But it is descriptive because you are actually having all 
of the various stakeholders, whether that is Customs and Border 
Patrol, whether that is the Coast Guard, whether it is our 
Canadian counterparts, whether it is our local officials, local 
first responders, the Michigan State Police, et cetera, our 
National Guard, everybody. All stakeholders feed their data 
into this operational integration center.
    The data is massaged by the expert and is able to come out 
in a product that can be put in the hands of a Border Patrol 
agent out in the field on the front lines to utilize real-time 
information effectively as they need to. So we are very excited 
with that. We are going to have a grand opening next month, I 
think. We are hoping the Secretary will come there.
    One of the other things--and Mr. Cuellar and I are going to 
be talking about where we see this subcommittee going in the 
future and some of the various issues we want to talk about. 
But, you know, perhaps we are not measuring every bit of the 
matrix and giving as much weight to every measurement in the 
matrix as much as we should.
    For instance, we were just commenting here or listening to 
some of the comments that perhaps we are not measuring the 
technology part of it as heavily, giving it as heavy weight as 
we should. I am a big proponent of UAVs. I know Mr. Cuellar has 
that in his district. Or at least in Texas and through the 
Southern border.
    I mean, this is off-the-shelf hardware that has already 
been paid for by the U.S. taxpayers that has been utilized very 
effectively in-theater that can be utilized in the south, the 
north, the coastal borders. It has to.
    So, at some of our follow-up hearings we are going to want 
to be talking to folks about the follow-on technology, the 
SBInet, what comes next, really, and how we measure that, 
whether it is UAV. Another good type of technology that we are 
all starting to look into and may have a hearing on as part of 
the technology hearing is some of the land systems. Again, 
these are things that are being utilized very effectively in 
terrain that is certainly every bit as rugged, if not more, 
than what we find in our borders, in-theater, in Afghanistan, 
through Iraq.
    These are technologies that always don't require an actual 
person, just like a UAV. If you lose a UAV in-theater, you 
know, it is too bad you lost a couple million dollars. But you 
didn't lose a person. Same thing with these land systems.
    I mean, the technology is out there. As one of my 
colleagues mentioned, it is our job. You need to tell us what 
you need.
    You give us your best advice, and we will--it is for us to 
make the difficult decisions in face of the financial crisis 
that is facing our Nation to be able to understand how we are 
going to prioritize dollars, to be able to give you all, 
particular, Chief, the resources that your very brave men and 
women need to do their jobs as effectively as they know how to 
do them if they had the resources to do them and meeting the 
mandate that the American people have set for us, certainly. 
That is border security and securing our border.
    Mr. Cuellar, would you have any follow-on questions--some 
time?
    Mr. Cuellar. Well, thank you, Madam Chairwoman. The only 
thing I would add is something that we have talked about, as 
you mentioned a few minutes ago, reducing taxpayers' dollars 
for equipment that has been already purchased, or at least the 
research has been done. That is the defense intelligence agency 
that has technology that can be used for the border.
    We have gone down to the border with the defense 
intelligence agency. They have been doing some pilot programs. 
The only thing I saw, Madam Chairwoman, is that there was a 
little resistance from homeland, I guess, trying to use their 
own research.
    But taxpayers have always been used on that. I think it is 
something that you all should really look into. It has been 
tested by the military in the battlefields and certainly, can 
work on the border also.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank you.
    I guess my final question, then, before we close would be 
to ask when you think the Border Patrol may be offering their 
new metrics for how you are going to be measuring operational 
control.
    Chief Fisher. As soon as we feel comfortable that they 
would represent what we believe that--you know, one of the 
things that we don't want to do, Madam Chairwoman--and this is 
certainly something I have looked at--is, you know, how we do 
this and just beyond just the definition and beyond the words.
    We recognize that the words that we use mean something. So, 
we want to make sure that we have a full understanding of, not 
just what we think they mean, but as it gets rolled out, both 
in terms of the committees and the American people, that we 
have a better sense.
    It is not necessarily coming up with new metrics as much as 
it is understanding how those metrics apply in today's border 
environment. I will give you a quick example.
    One is--I touched about it briefly--apprehensions. We have 
been talking about apprehensions ever since I have been in the 
Border Patrol. But what is more important, at least to me, is 
not the number of apprehensions, but the number of people. Of 
those people--we talked about recidivism.
    How many of those individuals were apprehended just one 
additional time? How many of those individual were apprehended 
between five and 10 times? That, to me, starts really 
understanding what is it that we are trying to affect as 
opposed to just looking at a metric outside of the broader 
context.
    So it is not new, necessarily, metrics. Although we explore 
those as well. It is how we even further define--I mean, 
understand what these metrics mean to us now in this different 
border environment. But as soon as we are able to, we will--
certainly, I will be talking with you and your staff to be able 
to get a sense of: Does this make sense?
    Mrs. Miller. Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    I would ask Chief Fisher and Mr. Stana also to look at the 
new GPRA 2.0, if I can say that. Because there is a section 
there--it talks about the measurements. But there is a section 
there also working with Senator Coburn that basically puts some 
teeth on programs and agencies that says that if you don't meet 
the efficiency, you could end up with--and I am not saying you, 
but just in general speaking, a program can be either reduced 
or eliminated for their inefficiencies.
    There is some strong, strong, strong language that we 
worked with Senator Coburn on this. So I would ask you all to 
look at this new law because in the past, there hasn't been 
teeth added.
    But there is now teeth added to it now where, as we look at 
the measures and agencies don't meet the measures and provide 
that information over to the Members of Congress, there is some 
teeth now that could call for Members of Congress to go after 
your budget or total elimination of a program or agency if we 
don't meet those efficiencies. So I would highly, highly, 
highly suggest that you look at GPRA 2.0.
    Mr. Stana. Actually, you are raising a very good point. In 
fact, when GPRA equivalents are used in foreign countries, that 
is the outcome in the zero sum budget environment. The ones 
that don't meet performance measures have a lot of explaining 
to do.
    Mrs. Miller. Okay. I just, again, want to thank all the 
witnesses. We certainly have appreciated your participation in 
today's hearing, all your information.
    Particularly to the mayor, who had to travel from Laredo. 
So we appreciate you coming, my new cousin. I appreciate that.
    The Members of the committee who have some additional 
questions for the witnesses, we will ask you to respond to 
these in writing. The hearing record will be open for 10 days. 
Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
